<html>
<title> - ASSESSING AND ADDRESSING THE THREAT: DEFINING THE ROLE OF A NATIONAL COMMISSION ON THE PREVENTION OF VIOLENT RADICALIZATION AND HOMEGROWN TERRORISM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 ASSESSING AND ADDRESSING THE THREAT:
               DEFINING THE ROLE OF A NATIONAL COMMISSION
  ON THE PREVENTION OF VIOLENT RADICALIZATION AND HOMEGROWN TERRORISM

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2007

                               __________

                           Serial No. 110-48

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-922                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington, Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     4
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania......................................    31
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    26
The Honorable Ed Perlmutter, a Representative in Congress from 
  the State of Colorado..........................................    27
The Honorable Christopher Shays, a Representative in Congress 
  from the State of Connecticut..................................    29

                               Witnesses

Mr. Salam Al-Marayati, Executive Director, Muslim Public Affairs 
  Council:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Frank J. Cilluffo, Director, Homeland Security Policy 
  Institute, The George Washington University:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Brian Jenkins, RAND Corporation:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    43


 ASSESSING AND ADDRESSING THE THREAT: DEFINING THE ROLE OF A NATIONAL 
 COMMISSION ON THE PREVENTION OF VIOLENT RADICALIZATION AND HOMEGROWN 
                               TERRORISM

                              ----------                              


                        Thursday, June 14, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, Dicks, Perlmutter, 
Reichert, Shays and Dent.
    Ms. Harman. The hearing will come to order. Almost 6 years 
after 9/11 and after countless Intelligence briefings on the 
Hill, I am very unhappy to report that I still don't know what 
makes a terrorist. And not just any kind of terrorist, mind 
you, but terrorists who are either American citizens or legal 
residents who are here actively planning to murder their 
neighbors, who could be you or me or our relatives and friends 
and, by the way, as many of us as possible.
    I ask, why does an American citizen like Russell Defreitas 
allegedly conspire with an al-Qa'ida inspired cell of 
international terrorists to destroy JFK Airport and kill 
thousands of people by blowing up fuel storage tanks and 
pipelines? Why would a U.S. citizen and two U.S. residents 
conduct reconnaissance of Fort Dix in New Jersey and plot to 
kill, quote, as many American soldiers as possible, unquote, 
with mortars, rocket-propelled grenades and guns all, quote, in 
the name of Allah, unquote? And why did Adam Gadahn, a Jewish 
kid from southern California, go from being an alienated 
American teenager to an al-Qa'ida sympathizer to the mouthpiece 
for Osama bin Laden preaching hate and violence across the 
airwaves.
    I don't have the answers. I don't believe my colleagues 
have the answers. And the American people don't either.
    What I do know, however, is that I am chilled by what Dame 
Eliza Manningham-Buller, the former director of Britain's MI5, 
has said about the consequences of failing to get the answers 
and failing to act in time based on those answers. Last 
November, Dame Eliza revealed that, in the United Kingdom 
alone, police and others within our organization, quote, are 
working to contend with some 200 groupings or networks totaling 
1,600 identified individuals who are actively engaged in 
plotting or facilitating terrorist acts here--here means 
Britain--and overseas. You heard me right. Some 200 terrorist 
plots involving more than 1,600 British citizens planning to 
kill other British citizens, or if we had not foiled the liquid 
bomb plot last summer, planning to kill up to 4,000, mostly 
American, citizens traveling to the U.S. on U.S. planes.
    I am worried. We must learn from the UK experience and fix 
what needs fixing in this country before we find ourselves 
under the same threats as Britain is. An important step toward 
doing that, I believe, is to consider establishing a national 
commission on the prevention of radicalization and homegrown 
terrorism. While we potentially face similar problems as 
Britain, I am mindful of the fact that we are not the United 
Kingdom. And what we face may be different and less menacing. 
That is all the more reason for us to conduct an expedited but 
thorough study of what is happening in our country so we can 
find an American response to our American indigenous threat.
    The commission, we want to discuss with our witnesses 
today, could be modeled after the National Commission on 
Terrorism, which I served on in the late 1990s, from 1999 to 
2000, and which I believe produced a very important report 
predicting a major terrorist attack on U.S. soil. One of our 
witnesses, Brian Jenkins, was also involved in that effort. And 
I should say to our audience and our witnesses that, on 9/10/
2001, the commission's chairman, L. Paul Bremer, Jerry Bremer, 
and I had lunch near the Capitol wondering why no one was 
paying attention to our recommendations.
    A commission focused on radicalization and homegrown 
terrorism could get us up to speed quickly on the threat and 
help us assess whether a legislative strategy is needed to 
address it. The commission could also bring together the best 
minds in the Nation from as many diverse backgrounds and 
experiences as possible. It could create a common strategy that 
not only shapes the action we take here but also carves out a 
role for other stakeholders at the Federal, State and local 
levels. And I might add, we should probably assess what the 
private sector could be doing as well. I am eager to hear from 
the witnesses about the value of this approach, what issues it 
should address and what recommendations it should make.
    And let me commend the ranking member, Mr. Reichert, who we 
also call Sheriff Reichert, for being one of the early 
advocates for this approach. But let me be absolutely clear, 
when we talk about radicalization and homegrown terror, we are 
not talking about--I want to underscore this--people from one 
particular ethnic, political or religious group. On the 
contrary, we are talking about anyone who might be engaged in 
ideologically based violence, whether by a U.S. Bronze Star 
honoree named Timothy McVeigh; or in Belgium, a female Catholic 
convert to Islam who traveled to Iraq and blew herself up; or 
in the UK, third generation Britons of Pakistani decent who, 2 
years ago, killed scores of their fellow citizens on buses and 
trains. I am sure everyone on this subcommittee would agree 
that while taking on radical extremists who mean us harm, it 
would be wrong, it is wrong, to lump an entire community 
together for increased scrutiny simply because of their ethnic, 
religious or national background. And it would be equally 
wrong, let me stress this, to pretend that there is no problem 
and hope for the best.
    The time for action is now. We will consider marking up 
legislation next week. What our witnesses share with us today 
will help us finalize our work and help save lives now and in 
the future.
    Welcome, again, to you all. And I now yield to the ranking 
member, Mr. Reichert, for an opening statement.

Prepared Statement of the Honorable Jane Harman, Chair, Subcommittee on 
    Intelligence, Information Sharing, and Terrorism Risk Assessment

    <bullet> Almost six years after 9/11, and after countless 
intelligence briefings on the Hill, I am very unhappy to report that I 
still don't know ``what makes a terrorist''.
    <bullet> And not just any kind of terrorist, mind you, but 
terrorists who are either American citizens or legal residents who are 
actively planning to murder their neighbors--who could be you or me or 
our relatives and friends.
    <bullet> I ask: why does an American citizen like Russell Defreitas 
conspire with an al-Qa'ida-inspired cell of international terrorists to 
destroy JFK airport and kill thousands of people by blowing up fuel 
storage tanks and pipelines?
    <bullet> Why would a U.S. Citizen and two U.S. residents conduct 
reconnaissance of Fort Dix in New Jersey and plot to kill ``as many 
American soldiers as possible'' with mortars, rocket-propelled 
grenades, and guns--all ``in the name of Allah''?
    <bullet> And why did Adam Gadahn, a Jewish kid from Southern 
California, go from being an alienated American teenager, to an al-
Qa'ida sympathizer, to the mouthpiece for Osama bin Laden, preaching 
hate and violence across the airwaves?
    <bullet> I don't have the answers, my colleagues don't have the 
answers, and the American people don't either.
    <bullet> What I do know, however, is that I am chilled by what Dame 
Eliza Manningham-Buller, the former Director of MI5, has had to say 
about the consequences of failing to get those answers--and failing to 
act based on them.
    <bullet> Last November, Dame Eliza revealed that in the United 
Kingdom alone, police and others within her organization ``are working 
to contend with some 200 groupings or networks, totaling over 1,600 
identified individuals . . .who are actively engaged in plotting, or 
facilitating, terrorist acts here and overseas.''
    <bullet> You heard me right. Some 200 terrorist plots involving 
more than 1600 British citizens planning to kill other British 
citizens!
    <bullet> I'm worried that it could happen here, too.
    <bullet> We must learn from the UK experience and fix what needs 
fixing in this country before we find ourselves in precisely the same 
situation.
    <bullet> An important first step toward doing that, I believe, is 
establishing a National Commission on the Prevention of Radicalization 
and Homegrown Terrorism.
    <bullet> While we potentially face similar problems, I am mindful 
of the fact that we are not the United Kingdom and we may face a 
different, less menacing, kind of homegrown threat.
    <bullet> That is all the more reason for us to conduct an expedited 
but thorough study of what his happening in our country so we can find 
an American response to our indigenous threat.
    <bullet> The Commission we are exploring is modeled after the 
National Commission on Terrorism that I served on during the late 
nineties.
    <bullet> One of our witnesses, Brian Jenkins, was also involved in 
that effort.
    <bullet> A Commission focused on violent radicalization and 
homegrown terrorism could get us up to speed quickly on the threat and 
help us assess whether a legislative strategy is needed to address it.
    <bullet> The Commission could bring together the best minds in the 
nation--from as many diverse backgrounds and experiences as possible.
    <bullet> Such a Commission could create a common strategy that not 
only shapes Congressional action but also carves out a role for other 
stakeholders at the Federal, State, and local levels.
    <bullet> I am eager to hear from the witnesses about the value of 
this National Commission approach, what issues it should address; and 
what recommendations it should make.
    <bullet> But let me be absolutely clear: when we talk about 
``radicalization'' and ``homegrown'' terrorists, we're not talking 
about people from any particular ethnic, political, or religious group.
    <bullet> On the contrary, we're talking about ideologically-based 
violence, whether by a white, U.S. Bronze Star honoree named Timothy 
McVeigh; or
    <bullet> in Belgium, a female Catholic convert to Islam who 
traveled to Iraq and blew herself up; or
    <bullet> in the UK, third generation Britons of Pakistani descent 
who two years ago killed scores of their fellow citizens on buses and 
trains.
    <bullet> I am sure everyone on this Subcommittee would agree that 
while taking on radical extremists who mean us harm, it would be wrong 
to lump an entire community together for increased scrutiny simply 
because of their ethnic, religious or national background.
    <bullet> And it would be equally wrong to pretend the problem does 
not exist and hope for the best.
    <bullet> The time for action is now. We will mark up legislation 
next week.
    <bullet> What our witnesses share with us today will help us 
finalize our work and help save lives now and in the future.
    <bullet> Welcome again to you all.

    Mr. Reichert. Thank you, Madam Chair. And I want to thank 
you for holding this hearing and for your leadership on this 
issue. And just for the information of the audience and the 
panel present today, you have a committee with varying 
backgrounds and experience.
    And the Chair referred to me as the sheriff. My experience 
comes from local law enforcement for the past 33 years. This is 
my second term here in Congress. The last 8 years of my tenure 
in the sheriff's office in Seattle was as the elected sheriff 
there. And the rest of the committee comes, as I say, with a 
background in a variety of degrees and a lot experience in 
Homeland Security efforts, Intelligence efforts and Department 
of Defense. So you have a committee here that is really 
interested and willing to work with you to help make this 
commission a successful event.
    And I want to thank you three for being here this morning, 
taking time out of your busy schedule to give us your insights 
and to answer some of the questions that we have to pose to you 
today. This subcommittee has focused intently on the issue of 
radicalization, as you know, and how it affects our security. 
Unfortunately, since that time, as we have been moving through 
this, we have seen radicalization and individuals involved in 
radicalism in plots against us, most recently against the John 
F. Kennedy Airport.
    JFK plotters aimed to cause greater destruction than in the 
September 11th attacks, by destroying the airport, killing 
several thousand people and destroying parts of Queens. One of 
the United States citizens involved in the plot indicated that 
JFK was targeted because it is a symbol that would put the 
whole country in mourning saying, it is like you can kill the 
man twice. This is what we are dealing with.
    And, unfortunately, the scope of the potential problem is 
huge. Radicalized cells can form in prisons, get together on 
the Internet, meet and follow charismatic leaders or any 
combination of the three. They can also decide to become a lone 
wolf to avoid detection. This example is especially noteworthy 
after the lone wolf shooting at the Jewish Federation in 
Seattle last summer.
    Radicalization is a complex phenomena. It is essential that 
we understand the phenomena, especially on how these cells form 
and how they grow. In March of this year, I introduced H.R. 
1605, The Prevent Act, which would establish a national 
commission on the prevention of radicalization. And unlike most 
commissions, like the 9/11 Commission, like the WMD Commission 
and the U.S.S. Cole Commission, which were formed after a major 
failure occurred, this commission would focus on mitigating 
problems leading to radicalization before a major attack 
occurs.
    I have been involved in all sorts of commissions over my 
career and conferences and committees. And most of the time 
what happens, we get together, we talk, we write down some 
reports, and nothing is ever done. This needs to be a 
commission, an effort, some energy put toward where we actually 
have some meaningful findings, things that we can do, some 
action items that we can apply, so that we can prevent attacks 
from occurring within the United States. And, again, I thank 
all of you for being here.
    I thank you, Madam Chair, again, for your leadership. And 
this truly is a committee that has worked in a bipartisan way 
to protect our Nation and its people. Thank you very much.
    I yield.
    Ms. Harman. I thank the ranking member and now welcome our 
witnesses. Let me note also that other members of the 
subcommittee under subcommittee rules can enter opening 
statements in the record if they so choose.
    All of the witnesses on this panel are very well known to 
me. And I commend them for not only the excellent testimony 
they have submitted for today's hearing but for the work they 
do in their day jobs on these issues.
    Our first witness, Brian Jenkins, is the senior advisor to 
the RAND Corporation and is one of the world's leading 
authorities on terrorism. He is a repeater. He testified at our 
recent Los Angeles hearing on the same subject. And I would 
also say, he is the godfather. He founded the RAND 
Corporation's terrorism research program in 1972. That is not a 
typo, 1972. Has written frequently on terrorism. And has served 
as an advisor to the Federal Government and the private sector 
on terrorism-related issues. In 1996, he was appointed by 
President Clinton to the White House Commission on Aviation, 
Safety and Security. He also served as an advisor to the 
National Commission on Terrorism, the one on which I served, 
and is a member of the U.S. Comptroller General's advisory 
board.
    Our second witness, Mr. Salam Al-Marayati, is the executive 
director of the Muslim Public Affairs Council, MPAC, which is 
an organization that, among other things, plays a major role 
with the FBI regional office in Los Angeles. MPAC is a public 
service agency aimed at disseminating accurate information 
about Islam to the American public. The MPAC national office in 
Washington, D.C., serves as the primary interface between the 
Muslim American community and U.S. Government officials. MPAC 
has worked with the Departments of State, Treasury and Homeland 
Security, and the White House to offer guidance on issues that 
affect the United States and the Muslim community.
    Our third witness, Mr. Frank Cilluffo, is the associate 
vice president for Homeland Security at the George Washington 
University Homeland Security Policy Institute. That is a 
mouthful. Mr. Cilluffo leads the university's homeland security 
efforts on policy, research, education and training. He directs 
the multidisciplinary Homeland Security Policy Institute, a 
think tank that advances homeland security issues. The 
institute's recent policy and research agenda has spanned 
domestic terrorism, radicalization, disaster management, 
emergency preparedness, pandemic influenza planning, 
biodefense, intelligence and information sharing. And if that 
is not enough of a nightmare, I am sure we will hear from him 
today about how we need to do even more. I would add, about Mr. 
Cilluffo, when I became, with the former House Member Saxby 
Chambliss, the--I guess we were the co-chairs of--I am not sure 
how it was defined, but anyway of our House focus on terrorism 
following 9/11. We called a small panel together to advise us 
on what we should do, and Mr. Cilluffo was one of the people we 
turned to.
    Without objection, the witness's full statements will be 
inserted in the record. I would now ask each of you to 
summarize your statement for 5 minutes. There is a little clock 
that will be blinking at you if you violate my edict.
    And let us start first with Mr. Jenkins.

  STATEMENT OF BRIAN JENKINS, SENIOR ADVISOR, RAND CORPORATION

    Mr. Jenkins. Madam Chair, members of the committee, I want 
to thank you for providing me with another opportunity to 
address radicalization and recruitment to terrorism in the 
United States. In my April 5th testimony, I address the ways 
terrorists recruit and what we might do to improve it. Today I 
would like to focus my remarks on the specific proposal; that 
is, the creation of a national commission on the prevention of 
violent radicalization and homegrown terrorism.
    As a historian and based upon personal experience, I 
believe that advisory commissions can be useful instruments for 
addressing difficult issues and providing new approaches. In 
the past, national commissions have helped the country navigate 
crises, define and address problems of domestic violence and 
prepare for the growing challenge of terrorism. To go all the 
way back to the wave of assassinations and riots in the 1960s, 
the Eisenhower Commission on Violence in America, in 1968, 
thoughtfully reviewed America's propensity for violence. It 
warned of a divided society.
    In 1983, the Long Commission convened to review the bombing 
of the Marine barracks in Beruit. It went beyond that, and it 
alerted the Pentagon and the public that terrorism had become 
another form of armed conflict for which our armed forces had 
to be prepared.
    Several commissions were convened in the 1990s to examine 
new dangers offered by terrorism. One after another they issued 
sober findings. The Deutch Commission warned of the weapons of 
mass destruction. The Bremer Commission warned of a large-scale 
terrorist attack in the United States. In many respects, that 
commission's report and the problems it identified proved 
prophetic. Its concerns were echoed by the Gilmore Commission. 
All three commissions agreed that the United States had to 
prepare for terrorist catastrophe.
    After the terrorist attacks on the World Trade Center and 
Pentagon in 2001, of course, the 9/11 Commission was able to 
build upon this earlier work and the issues that the earlier 
commissions had identified to produce a national plan for 
improving our capabilities to combat terrorism. The 9/11 
attacks were carried out by 19 terrorists who were radicalized 
and recruited abroad. But as the threat has evolved since, 
today we worry more about individuals in the United States who 
may respond to the continuing, and I should say, increasingly 
sophisticated incitement to violence emanating from al-Qa'ida 
and its allies. And that is the challenge that the proposed 
commission would have to consider.
    In doing so, it would be required to address a broad range 
of questions: What do we know about radicalization and 
recruitment to terrorism in the United States? We talk about 
self-radicalization, but our actual cases show evidence of 
proselytizers, inciters, incubators, people who facilitate 
travel abroad for training for terrorism; hardly ``self.'' What 
could be done about this infrastructure that supports 
radicalization and recruitment? Should we see recruitment as a 
societal problem calling for community intervention or a matter 
of purely personal choice? And if the former, what is the role 
of the communities where recruiting is occurring, and how would 
the affected communities frame the problem? What role, if any, 
would they propose? What is the role of the Internet? What 
lessons might we learn from the efforts of other nations? What 
are possible strategies for reducing recruitment to terrorism 
in this country? And finally, what is the appropriate role of 
Federal and local government?
    Tasking an advisory commission with assembling all we know 
and developing a framework for understanding radicalization and 
homegrown terrorism, therefore, in my view, is a good idea. 
Inevitably, it will lead to the identification of some specific 
threats and vulnerabilities and possible ways to fix them. Some 
of these will address issues of enhancing our local 
intelligence capabilities, updating legal mechanisms to deal 
with Internet-era technology. Those certainly should be done. 
Some will inevitably touch upon more sensitive areas. And here 
we do have to be cautious. Proposals that get us into the area 
of social engineering have to be very carefully analyzed for 
their intended and unintended consequences. Whatever we do to 
improve national security must be accomplished without 
degrading our enduring values or our inherent national 
strengths. Thank you.
    [The statement of Mr. Jenkins follows:]

            Prepared Statement of Brian Michael Jenkings \1\

Defining the Role of a national Commission on the Prevention of Violent 
                 Radication and Homegrown Terrorism \2\

    Madame Chairperson and members of the Subcommittee, I want to thank 
you for providing me with another opportunity to address the issue of 
radicalization and recruitment to terrorism in the United States. Since 
my earlier testimony, authorities have uncovered two more terrorist 
conspiracies, and although these plots were nowhere near operational 
and probably would not have produced the death and destruction the 
conspirators fantasized about, they nevertheless indicate a mindset of 
those who seriously wanted to cause devastation. Had they been allowed 
to acquire the capability and not been intercepted, they probably would 
have used it.
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT285.
---------------------------------------------------------------------------
    In my April 5 testimony, I addressed the ways terrorists recruit, 
what we know about radicalization and recruitment in the United States, 
how we might impede it, and guiding principles for any actions we might 
consider.\3\
---------------------------------------------------------------------------
    \3\ Brian Michael Jenkins, ``Building an Army of Believers: 
Jihadist Radicalization and Recruitment: Testimony Before the Committee 
on Homeland Security Subcommittee on Intelligence, Information Sharing 
and Terrorism Risk Assessment, United States House of 
Representatives,'' April 5, 2007.
---------------------------------------------------------------------------
    Today I want to focus my remarks on the specific proposal before 
us--the creation of a National Commission on the Prevention of Violent 
Radicalization and Homegrown Terrorism.
    As a policy analyst, and based upon my own personal experience, I 
believe that advisory commissions can be useful instruments for 
addressing knotty issues and providing fresh perspectives.\4\ 
Commissions can bring together individuals inside and outside of 
government to combine experience, expertise, and political savvy. 
Commissions can conduct impartial inquiries, level hard criticism when 
warranted, help government officials and the public understand events, 
provide forums for diverse views, and alert the country to new threats.
---------------------------------------------------------------------------
    \4\ I served as an advisor to the Long Commission in 1983, briefed 
the Inman Panel, was a member of the Committee on the Embassy of the 
Future, advised the Pan Am 103 Commission, served as a member of the 
White House Commission on Aviation Safety and Security 1996--97 and as 
an advisor to the National Commission on Terrorism 1999--2000, was a 
technical reviewer for the Gilmore Commission Report, and testified 
before and assisted the staff of the 9/11 Commission.
---------------------------------------------------------------------------
    Commissions are not permanent government bodies. They have no 
authority beyond their powers of persuasion, which I think is good. 
Required to produce a public report, commissions come to see the 
American people as their primary constituency, the national interest as 
their sole guide, which enables them to rise above partisan politics 
and transcend bureaucratic agendas. Often they can say things that 
cannot comfortably be said by officials, including themselves as 
individuals in their current or former positions. Even when their 
recommendations are ignored by legislators or decisionmakers, 
commissions offer a nonpartisan dissenting voice.
    Commissions, however, have their limitations:
    The oft-heard criticism that creating a commission enables 
political leadership to duck hard decisions may be deserved, but clamor 
for immediate action can lead to hasty decisions and drive-by 
legislation. A conscientious decision to buy time for more thoughtful 
recommendations (and a better decisionmaking climate) can be wise 
leadership.
    Finding the right balance between a roadmap to a perfect world and 
pragmatic suggestions that have some chance of implementation is never 
easy. Bipartisanship can sometimes lead to milky compromises. Courtesy 
among commission members can permit the inclusion of sometimes-
eccentric recommendations.
    The presumption that something has gone wrong, a sense of urgency 
underscored by a commission's own limited life span, can drive 
commissions into making too many recommendations, many of them 
exhortations to do better without direction. The first option--not 
altering course and therefore not doing more harm--should always be 
considered seriously. Often, it is not.
    Commission members may choose to be gadflies; frankly, sometimes 
they can become cranks. Nevertheless, in the recent past, national 
commissions have helped the country navigate crises, define and address 
problems of domestic political violence, and prepare for the increasing 
challenge of terrorism \5\:
---------------------------------------------------------------------------
    \5\ Commissions that have addressed domestic political violence and 
international terrorism include the following:
    1967--National Advisory Commission on Civil Disorders (Kerner 
Commission)
    1968--National Commission on the Causes and Prevention of Violence 
(Eisenhower Commission)
    1970--President's Commission on Campus Unrest (Scranton Commission)
    1983--DoD Commission on Beirut International Airport Terrorist Act, 
October 23, 1983 (Long Commission)
    1984--Advisory Panel on Overseas Security (Inman Panel)
    1989--President's Commission on Aviation Security and Terrorism 
(McLaughlin Commission) 1995--Commission on the Roles and Capabilities 
of the U.S. Intelligence Community (Aspin Commission)
    1996--President's Commission on Critical Infrastructure Protection
    1996--White House Commission on Aviation and Security (Gore 
Commission)
    1996--Task Force on the Khobar Towers Bombing (Downing Commission)
    1998--U.S. Commission on National Security/21st Century (Hart-
Rudman Commission)
    1998--U.S. Commission to Assess the Organization of the Federal 
Government to Combat the Proliferation of Weapons of Mass Destruction 
(Deutch Commission)
    1998--Accountability Review Board on the Bombings of the U.S. 
Embassies in Nairobi, Kenya and Dar es Salaam, Tanzania, on August 7, 
1998 (The Crowe Commission)
    1999--National Commission on Terrorism (Bremer Commission)
    1999--Advisory Panel to Assess Domestic Response Capabilities for 
Terrorism Involving Weapons of Mass Destruction (Gilmore Commission)
    2000--DoD USS Cole Commission (Crouch-Gehman Commission)
    2002--National Commission on Terrorist Attacks Upon the United 
States (9/11 Commission)
    2004--Commission on the Intelligence Capabilities of the U.S. 
Regarding Weapons of Mass Destruction (Robb Commission)
---------------------------------------------------------------------------
        <bullet> In the wake of assassinations and riots, the 1968 
        Commission on Violence in America thoughtfully reviewed 
        America's propensity for violent politics and put the 
        contemporary outburst in historical context but warned of a 
        divided society.
        <bullet> In 1983, the Long Commission, convened to review the 
        terrorist bombing of the Marine barracks in Beirut, alerted the 
        Pentagon and the public that terrorism had become another form 
        of armed conflict for which our armed forces must be prepared. 
        Further commissions were convened to review events and distill 
        lessons learned from the terrorist bombings of Khobar Towers in 
        1996, the American embassies in Kenya and Tanzania in 1998, and 
        the USS Cole in 2000.
        <bullet> At the same time, the Inman Panel, responding to 
        terrorist attacks on U.S. diplomats and diplomatic facilities, 
        laid out an ambitious program to increase the security of our 
        diplomatic establishment.
        <bullet> In 1989, the Pan Am 103 Commission devised another 
        ambitious program to improve U.S. efforts to combat terrorism 
        and increase security for commercial aviation.
        <bullet> The crash of TWA flight 800, although it turned out 
        not to have been caused by terrorist sabotage as initially 
        suspected, provided the basis for the Gore Commission to make 
        specific recommendations to improve aviation safety and 
        security.
        <bullet> Several national commissions were convened in the 
        1990s to examine the new dangers. One after another, they 
        issued sober findings. In 1999, the Deutch Commission warned of 
        the diversion of weapons of mass destruction from Russia, 
        possession of weapons of mass destruction by unfriendly states, 
        clandestine delivery of a nuclear weapon, and terrorist use of 
        weapons of mass destruction in the United States. The following 
        year, the Bremer Commission warned of large-scale terrorism in 
        the United States, including chemical, biological, and 
        radiological attacks. The Gilmore Panel warned of attacks in 
        the United States with weapons of mass destruction, terrorist 
        attacks on U.S. agriculture, and cyberterrorism. All three 
        commissions agreed that the United States had to prepare for 
        catastrophe. They also warned that national panic in the face 
        of such threats could imperil civil liberties. The Hart-Rudman 
        Commission recommended the creation of a cabinet-level Agency 
        of Homeland Security.
        <bullet> Following the terrorist attacks on the World Trade 
        Center and the Pentagon, the 9/11 Commission identified 
        failures and built upon earlier work to provide a comprehensive 
        blueprint for improving national capabilities to prevent the 
        recurrence of such attacks.
    The 9/11 attacks were carried out by 19 terrorists who were 
radicalized and recruited abroad to attack the United States. Such 
attacks remain a possibility, but the terrorist threat has evolved. 
Today we worry more about individuals already in the United States, 
legally or illegally, who may respond to the continuing and 
increasingly sophisticated incitement to violence emanating from al-
Qa'ida, radicalize themselves, and plot terrorist attacks. In examining 
homegrown terrorism, the proposed commission would come closer to the 
Kerner and Eisenhower Commissions of the late 1960s than to the later 
commissions, which focused on threats from abroad.
    Any commission convened to address radicalization and recruitment 
in the United States will inevitably touch upon broader sensitive 
issues:
        <bullet> Protecting religious freedom while protecting society 
        against incitement and violence wrapped in asserted religious 
        imperatives.
        <bullet> The tenets of religious faith versus the 
        responsibilities of citizenship.
        <bullet> Protecting free speech but not incitement to violence 
        when it can be expected to result in criminal action.
        <bullet> Whether new communications technologies--e.g., the 
        Internet--warrant further monitoring and regulation.
        <bullet> Our ability to control our borders, regulate 
        immigration, and reduce illegal immigration.
        <bullet> Whether the assimilation of immigrants--America's 
        great strength--is still working.
        <bullet> The role and rules of domestic intelligence 
        collection.
        <bullet> The still fluid and always difficult determination of 
        when and how authorities should and may intervene to thwart 
        terrorist plots.
    One of the major challenges will be to correctly frame the issue, 
avoiding unsupported assumptions that lead to inappropriate strategies. 
Is homegrown terrorism an immigration and assimilation problem? Is this 
a problem for the Muslim community? (And what do we mean by ``the 
Muslim community''?) Do we need to mobilize the ``moderate Muslims''? 
And if so, how do we do that? Or is recruitment to violence a matter of 
individual choice and chance encounter?
    To conduct a thorough inquiry, the proposed commission would have 
to consider a broad range of questions:
        <bullet> What do we currently know about radicalization and 
        recruitment to terrorism in the United States? What do we need 
        to know?
        <bullet> How would we assess this threat? Is the danger 
        exaggerated? Radicalization and recruitment are occurring here, 
        but there is no evidence of a significant cohort of recruits. 
        Yet how confident are we that we know what is going on? Is this 
        a slow building effort by our terrorist foes?
        <bullet> We speak of self-radicalization, but actual cases show 
        evidence of proselytizers, inciters, incubators, trips abroad 
        for training, volunteers for violence seeking mission approval 
        from perceived figures of authority--not entirely ``self.'' 
        What do we know about this infrastructure for radicalization?
        <bullet> Is radicalization here a product of an externally 
        financed missionary campaign that is pushing an extreme version 
        of faith, self-isolation, intolerance, and militancy?
        <bullet> Should radicalization and recruitment be framed as an 
        immigration and assimilation problem? What about extremist 
        enterprises that recruit native-born Americans to violence? 
        Does it make sense to lump together the self-radicalization 
        that led to the Oklahoma City bombing with the self-
        radicalization that has produced violent jihadists?
        <bullet> Assimilation of immigrants, accomplished with little 
        federal intervention, is a historic strength of America. Along 
        with the ``huddled masses yearning to breathe free,'' we have 
        in the past occasionally imported their violent quarrels. Is 
        the problem significantly worse than previously? Have 
        circumstances changed to deepen the pools of unassimilating, 
        alienated immigrants or sons of immigrants? Has a violence-
        exalting narrative combined with effective exploitation of 
        modern communications, and perhaps anger at policies that can 
        easily be portrayed as an assault on faith or community, 
        interrupted the normal multigeneration integration of immigrant 
        communities?
        <bullet> Is recruitment to terrorism a societal problem calling 
        for community intervention or a matter of purely individual 
        choice? If it is the former, then what is the role of the 
        communities where recruiting is occurring? And if it is the 
        latter, do affected communities have no greater role than any 
        other citizens (and less basis for complaint when authorities 
        focus on suspected recruiting venues)?
        <bullet> What are the views of affected communities? How would 
        they frame the problem? What role, if any, would they propose? 
        Does inevitable and understandable public concern about 
        terrorism and the resulting heightened scrutiny of certain 
        communities reinforce community efforts to discourage young men 
        (and women) from pursuing dangerous and destructive paths or 
        only provoke suspicion and antagonism? Do affected communities 
        see a need for assistance, and if so, what kind of assistance?
        <bullet> What role does the Internet play in radicalization and 
        recruitment to violence, along with practical instruction in 
        its application? Does this role pose a sufficient threat to 
        require consideration of some measure of regulation? What are 
        other nations that face this challenge doing? What might be 
        learned from their efforts?
        <bullet> What are possible policies and strategies for reducing 
        recruitment to terrorism, explicitly considering the 
        possibility that the potential adverse consequences of any 
        government intervention beyond current local community and 
        intelligence efforts outweigh likely payoffs?
        <bullet> If useful interventions can be identified, what is the 
        appropriate role of the federal government versus that of local 
        government?
    You can detect a difference between my view on the creation of a 
national commission to examine radicalization and homegrown terrorism 
and my cautionary views regarding government intervention to prevent 
such threats. Let me make this explicit.
    Tasking a national commission with assembling all we know and 
developing a framework for understanding radicalization and homegrown 
terrorism is a good idea. Inevitably, such an inquiry will lead to the 
identification of some specific, perhaps new, threats and 
vulnerabilities, and possible ways to fix them. But here I become more 
cautious, even skeptical.
    Judging by the terrorist conspiracies uncovered since 9/11, violent 
radicalization has yielded very few recruits. Indeed, the level of 
terrorist activities in the United States was much higher in the 1970s 
than it is today. Fashioning national strategies to deal with handfuls 
of diverse misfits may be counterproductive. Therefore, as I concluded 
my April 5, 2007 testimony with some basic principles, let me conclude 
here by underscoring some principles to guide the proposed commission's 
work:
        <bullet> Improving national security must be accomplished 
        without degrading our enduring values.
        <bullet> Updating legal mechanisms to deal with Internet-era 
        technology should be done, but more ambitious and more 
        sensitive proposals for social engineering should be 
        extensively analyzed for their intended and unintended, 
        positive and negative consequences.
        <bullet> The criterion for any proposed measure should be a 
        very high level of confidence that it will be effective, that 
        the risks of adverse consequences will be very small, and that 
        it will include mechanisms to prevent and remedy the abuse if 
        things go wrong.
    Finally, efforts should be primarily local, albeit with federal 
assistance.

             SOME FURTHER THOUGHTS ON A PROPOSED COMMISSION

                      ON THE PREVENTION OF VIOLENT

                 RADICALIZATION AND HOMEGROWN TERRORISM

                         Brian Michael Jenkins

                             June 22, 2007

    The proposed commission can build on strength. Although we know 
that radicalization and recruitment to terrorism are taking place in 
the United States, these efforts thus far do not appear to have 
produced a significant cohort of terrorist operatives. Since 9/11, we 
have suffered no further terrorist attacks. We may credit good 
intelligence, possibly discouragement by the community, and the paucity 
of terrorist volunteers. Polling indicates that the vast majority of 
our immigrant population rejects violence. All this is good news. But 
the bad news is that our terrorist foes remain determined, their 
communications are becoming more sophisticated, and a greater number of 
young people may endorse terrorist violence. The challenge will be to 
reduce the appeal of those foes without eroding our inherent strengths.
    Any inquiry into measures to combat radicalization and recruitment 
to terrorism in the United States inevitably will confront the fact 
that the structure and strategy to address these elements as a 
component of our global efforts against terrorism are inadequate.
    In the first months after 9/11, we understandably focused our 
attention on disrupting any further large-scale terrorist attacks in 
the pipeline and on degrading the terrorists' operational capabilities. 
The United States then invaded Iraq, which has continued to command our 
resources and demand our attention. As a result, efforts aimed at 
preventing radicalization and recruitment to terrorism were consigned 
to the sidelines and remain scattered and uncoordinated. The Pentagon's 
Office of Strategic Information was strangled at birth. Military 
psychological operations remain tactical--in essence, playing cards 
with wanted posters. The State Department, although the lead agency for 
public diplomacy, has few resources and little authority over other 
parts of government. Nearly six years after 9/11, we have created no 
Political Warfare Executive, no new version of the United States 
Information Agency, to counter increasingly sophisticated terrorist 
propaganda.
    How we ultimately approach the issue here will affect perceptions 
abroad. Successful ideas developed to address the issue of homegrown 
terrorism will also find application elsewhere.
    Europe, especially the United Kingdom, France, Spain, Germany, and 
the Netherlands, has been intensively examining the issue of 
radicalization and recruitment. Saudi Arabia, Yemen, Malaysia, and 
Singapore have launched programs to reduce incitement, inoculate 
targeted communities, offer those who have been recruited a way back, 
and rehabilitate terrorist prisoners. We can learn from these 
experiences.
    Radicalization and recruitment to terrorism have also been examined 
by analysts in the intelligence community, by local law enforcement 
(with some informative research done by the New York Police 
Department), and by people in the research community. If the 
information was assembled in one place, we would probably find that we 
know a great deal about the dynamics of recruitment.
    Our encounters are primarily with individuals who have been 
arrested or detained. These include a number of hardcore terrorists, 
committed to the depths of their souls, who may color our overall view. 
Not surprisingly, we hear less from those who have been radicalized and 
decide to leave, although these may be the most informative and 
credible sources of information. Khaled al-Berry's La Terre est Plus 
Belle que le Paradis, Daveed Gortenstein-Ross' My Year Inside Radical 
Islam: A Memoir, and Ed Husain's The Islamist: Why I Joined Radical 
Islam in Britain, What I Saw Inside, and Why I Left could help us 
identify the decision points and weaknesses in the radicalization 
process.
    At the same time, these testimonials must be interpreted with care. 
While entirely sincere, they may reflect the denunciatory zeal of the 
``ex.''
    There is also debate within the broader community of faith, where 
the terrorists' extreme and exotic interpretations are being 
challenged. In the Footsteps of the Prophet: Lessons From the Life of 
Muhammad, by Tariq Ramadan, is a recent example. This is not a matter 
of mobilizing the so-called moderates against the extremists. Our role 
is not to endorse any religious scholars, which would in any case 
destroy their credibility, but instead to endorse the kind of debate 
that is consistent with individual liberty.
    We are looking at intent here. Therefore, I want to repeat a point 
made in response to a question. Those arrested on terrorism-related 
charges in the United States have manifest intent--they had simply not 
yet acquired the capability to carry out any attack.
    The Hamburg Cell, whose members ultimately led the 9/11 attacks, 
had intent. Until they went to Afghanistan, they had no capability. 
That was provided by al-Qa'ida.
    The Leeds Cell responsible for the 2005 bombings in London had 
intent. They acquired capability, probably when one of their members 
traveled to Pakistan.
    To move outside of al-Qa'ida's realm, Timothy McVeigh and his co-
conspirators responsible for the 1995 bombing in Oklahoma City had 
intent. McVeigh, a former soldier, acquired the capability himself.
    Intent is the constant. Capability is the variable. A determined 
group will continue to seek capability, reaching out for assistance or 
until its members are recruited for a specific terrorist operation by 
those with capability.
    We must, however, move very cautiously in criminalizing intent. As 
a country that guarantees individual liberty, we have not developed a 
large corpus of law dealing with intent. Free speech is 
constitutionally guaranteed, although not unlimited. Radicalization 
alone--the acquisition of extreme or outlandish beliefs--is no crime. 
It is only when radicalization turns to commitment to carry out acts of 
violence or to recruiting, assisting, or inciting others to do so that 
we enter the domain of law enforcement. We may never be able to draw a 
sharp line defining exactly where that occurs, which is why oversight 
is vital. The ultimate auditors, of course, are judge and jury.
    A final comment: The proposed commission's work might be divided 
into two phases. Phase one would examine radicalization and recruitment 
to homegrown terrorism, assess the threat, and identify its 
vulnerabilities. Phase two would recommend specific measures, 
identifying those requiring federal legislation and describing the 
benefits and risks of each.

    Ms. Harman. Thank you very much, Mr. Jenkins, for posing 
some very provocative questions and for the expertise you 
bring. Should we proceed with this idea, you are hereby 
enlisted.
    Mr. AlMarayati.

  STATEMENT OF SALAM AL-MARAYATI, EXECUTIVE DIRECTOR, MUSLIM 
                     PUBLIC AFFAIRS COUNCIL

    Mr. Al-Marayati. Thank you very much, Madam Chairperson, 
and the Subcommittee on Intelligence, Information Sharing and 
Terrorism Risk Assessment, for inviting the Muslim Public 
Affairs Council to provide a voice for the mainstream Muslim 
American community on Homeland Security. We believe that the 
commission is a very good idea that can address a number of 
very important issues, specifically identifying the 
relationship between the Muslim American community and the U.S. 
Government. We believe that increased engagement with and the 
role of the mainstream Muslim American community should be 
understood within the broader strategy of protecting our 
country. The Muslim American community is an underutilized 
asset. We can partner with it and understand legitimate, 
authentic and credible leadership as a key to countering 
extremism and radicalization.
    Preventing alienation of this group is also a key to 
effective policy making. Counter-extremism, in many ways, is 
tantamount to countering ghettoization, seen right now in 
European Muslim communities. And let me just add to this that 
the Muslim American story is a story of success. And we are 
dealing today with a very serious problem. But we should not 
dismiss many of the great contributions of Muslim Americans in 
business, academia, science and the arts. We should not dismiss 
the Muslim American contributions in our armed forces and in 
law enforcement today.
    America offers equal opportunity to citizenship, an open 
society, an alliance with civil society and a process for 
integration into pluralism. No other country today offers those 
opportunities for any of its minorities. America needs Muslims, 
and Muslims need America.
    We have a saying in our organization, home is not where our 
grandparents are buried; home is where our grandchildren are 
going to be raised. And for an effective counterterrorism 
strategy, the community should be involved as it is considering 
this a priority in protecting our home from any enemy. 
Therefore, community-based policing, similar to neighborhood 
watch groups, are effective in increasing crime. The Muslim 
Public Affairs Council in 2004 offered the national grassroots 
campaign to fight terrorism that is built on three major 
components: one, to amplify Islam's message against terrorism, 
to fight bad theology with good theology, to counter the 
theology of death with the theology of life; number two, to 
build partnerships between law enforcement and local Muslim 
communities, as Muslim Public Affairs Council has developed an 
important dialogue with the FBI and other law enforcement 
agencies on this very important issue; and number three, to 
offer guidelines to Muslim institutions so that they can 
demonstrate their transparency and accountability to the 
American public. And we do this not for political reasons but 
for Islamic reasons based on the Quranic principle found in 
sura 5, verse 32, that basically says the killing of an 
innocent human being is equal to the killing of all of 
humanity, and the saving of an innocent life is equal to the 
saving of all of humanity. We are here to save lives, Christian 
life, Jewish life, Muslim life, atheist life. And we counter 
the ideology of death with the ideology of life.
    But the ideology of life needs to have the platform and the 
arena and needs the assistance of government in raising its 
profile. Therefore, in doing so, I believe the American public 
can at least begin to appreciate that Muslim Americans are part 
of the solution, not part of the problem. In the FBI 
headquarters down the street, there is a quote that says, the 
most effective weapon against crime is cooperation; the efforts 
of all law enforcement with the support and understanding of 
the American people. The U.S. Government therefore needs to 
publicize the partnership it has developed with the Muslim 
American community and not just publicize the arrests of fringe 
elements that are not necessarily part of the mainstream Muslim 
American community. Muslim Americans want to be treated as 
partners, not suspects.
    Let me just end by touching upon three important elements 
that we believe should be addressed by the commission. Number 
one is the credibility of leadership. The term moderate has 
lost its impact and meaning. It is now interpreted by the 
Muslim American community as the one who has left Islam and 
condemns the religion wholesale with this following logic, that 
the only good Muslim is an ex-Muslim. The commission needs to 
include Muslims who are self-critical, but not self-hating. The 
term moderate should describe those who believe in the change 
of the status quo and perhaps are anti-establishment, but in 
advancing towards change renounce violence as an instrument of 
change and support civic engagement, human and interfaith 
relations and an understanding of Islam that is inclusive, not 
exclusive.
    Muslim youth need our support. In the several campuses 
throughout the United States, there are Hillel and Christian 
chaplaincy that support Jewish and Christian students 
respectively, but there is no similar support system for Muslim 
American students. Universities can also consider establishing 
a center for Muslim American studies that looks into the 
development and integration of Muslim Americans. And, finally, 
on the issue of Muslim youth, we need Federal programs that 
train adults, as well as youth, on the difference between free 
speech and incitement to violence.
    Lastly, Islamophobia is a root cause of radicalization, and 
we need more of our government and political leaders to speak 
out against anti-Islamic rhetoric, not for the sake of civil 
liberties necessarily but for the sake of keeping the Muslim 
American community engaged in all important policies. Thank 
you.
    [The statement of Mr. Al-Marayati follows:]

                Prepared Statement of Salam Al-Marayati

    Thank you, Congressman Bennie Thompson, Congresswoman Jane Harman, 
and members of the House Homeland Security Committee's Subcommittee on 
Intelligence, Information Sharing and Terrorism Risk Assessment for 
inviting me to testify on ``Assessing and Addressing the Threat: 
Defining the Role of a National Commission on the Prevention of Violent 
Radicalization and Homegrown Terrorism.'' On behalf of the Muslim 
Public Affairs Council (MPAC), I am honored to offer analysis and 
recommendations that we believe can be helpful and constructive in 
increasing the understanding and role of the mainstream Muslim American 
community within the broader strategy of protecting the country. While 
one of the most underutilized assets, understanding and partnering with 
the Muslim American community and its legitimate, authentic and 
credible leadership is the key to countering extremism and 
radicalization.
    One major aspect of any effective counterterrorism strategy is 
community-based policing, similar to neighborhood watch groups that 
have been effective in dealing with various crimes throughout the 
United States. To this end, MPAC launched the National Grassroots 
Campaign to Fight Terrorism in 2004 (http://www.mpac.org/ngcft/). This 
program was based on three critical components: (1) amplifying Islam's 
message against terrorism; (2) developing partnerships between law 
enforcement and local Muslim communities; and (3) offering guidelines 
to Muslim institutions to demonstrate transparency and accountability 
in the post 9/11 era. This program is based on the Quranic instruction: 
``Whosoever killed a human being--unless it be in punishment for murder 
or for spreading corruption on earth--it shall be as if he had killed 
all humankind; whereas, if anyone saves a life, it shall be as though 
he had saved the lives of all humankind.'' [5:32]
    Down the street from this House Office Building is the FBI 
Headquarters, and in the interior is etched an important quote 
underscoring the need for partnership: ``The most effective weapon 
against crime is cooperation . . .the efforts of all law enforcement 
agencies with the support and understanding of the American people.''
    Hence, the role of community-based organizations like MPAC is 
critical to bridging the governmental and non-governmental agencies in 
any policy initiative. To do so, there must be an environment of mutual 
trust and respect. Muslim Americans want to be treated as partners in 
making America safe and secure, not suspects. Treating them as suspects 
by advocating for policies that single out and hence isolate the entire 
community undermines and impedes efforts for homeland security.

Engagement
    Direct engagement with the Muslim American community is now a clear 
strategy of several federal agencies. It is the time to look more 
closely at the human and intellectual resources Muslim Americans can 
offer in the various areas of interest. Lately, hearings on 
radicalization have focused on campuses, the internet and prisons. For 
each of these problem areas, there are solutions found within the 
Muslim American community.
    Muslim Americans want to be part of the solution and do away with 
the stigma of being part of the problem. On the issue of universities, 
Muslim organizations and individuals work with students in counseling 
and guidance towards problem-solving. On the issue of the internet, 
there are several internet sites that provide thoughtful analyses on 
current affairs and counter extremist rhetoric. On the issue of 
prisons, Muslim chaplains are a critical part of the answer to self-
styled leaders that wear the cloak of Islam. Here I'd like to focus on 
Muslim Youth and the key factors in supporting rather than isolating 
our youth. In order to scratch beyond the surface to begin 
understanding and preventing radicalization from taking root in the 
United States amongst our youth, we must identify and explore the 
critical issues of identity, the government's responsibility to partner 
with credible leadership, the effects of Islamophobia, and the 
application of counterproductive language.

Muslim Youth
    MPAC recently issued a special report on Muslim youth entitled 
``The Impact of 9/11 on Muslim American Young People: Forming National 
and Religious Identity in the Age of Terrorism and Islamophobia'' 
(http://www.mpac.org/article.php?id=512). The recommendations in this 
report identify important steps that universities, government, media 
professionals and Muslim American institutions can take to begin their 
collective contribution to supporting and protecting our youth. In 
regards to the government's role, the recommendations include but are 
not limited to creating an Inter-Agency Muslim American Youth Advisory 
Board of leaders and young professionals, eliminating conflation of 
every criminal activity by Muslims as terrorism, more vocally speaking 
out against anti-Muslim hate speech, and inviting young Muslim American 
professionals and youth to trans-Atlantic dialogues that aim to create 
space for Western Muslim Youth to compare their experiences and build 
friendships and alliances. Furthermore, our federal law enforcement 
agencies should publicize the important and productive relationship 
they hold with Muslim American organizations and their leadership in 
order to demonstrate to the American public that mainstream Muslims are 
working alongside the government to protect their communities and their 
country. As we discuss the potential threat of homegrown terrorism and 
radicalization, universities also play a critical role in fostering 
inclusion.
    For this reason, we recommend that universities institutionalize a 
Muslim chaplain position for every campus in the United States. While 
every campus has a Hillel support system or a Christian chaplaincy, 
Muslim students have no comparable support. Hence, MPAC is calling for 
a collaborative effort emanating from the leadership of every college 
campus to institute a Muslim religious advisor funded, staffed and 
certified by the university to ensure the applicability of the 
chaplain's contributions are germane to each campus. In tandem, 
universities should dedicate resources to the creation of centers for 
Muslim American studies that can foster better understanding of the 
Muslim landscape, including much needed academic research. This 
research, when coupled with direct engagement, should facilitate 
further integration of Muslim Americans into American pluralism.

Credibility of Leadership
    The word moderate has been politicized in the discourse on counter-
extremism to the extent that it has lost its impact. Moderate has 
become associated with the individuals who have left Islam and condemn 
the religion wholesale. Government partnering with credibile leadership 
within the Muslim American community is a key component in effective 
engagement. The Commission needs Muslims who are self-critical without 
being self-hating. A major problem in the policy-making circles is the 
absence of Muslim Americans who represent the mainstream community with 
a track record in enhancing civic engagement, interfaith and human 
relations.
    Campus life should represent the best of America in offering 
opportunities for critical thinking, free speech and civil discourse. 
Hence, discussions with federal agencies on the distinctions between 
free speech and incitement to violence are crucial to the development 
of healthy debate in universities. Federal programs in promoting 
dialogue and countering hate speech could be very instructive and 
beneficial to Muslim and non-Muslim student groups.

Islamophobia
    Those involved in counterterrorism policy-making should understand 
that the more negative the image of Islam is in public discourse, the 
more fertile the soil will be for radicalization of Muslim youth 
throughout America. Young people react to perceived threats upon their 
identity by amplifying the most noticeable anti-social elements as 
symbols of their independence and chosen identity.
    MPAC offers the Muslim American identity as the model for healthy 
integration into American pluralism. We reject the ``clash of 
civilizations'' theory as we see no friction between the founding 
principles of America and the values of Islam. As we have repeatedly 
stated, ``Home is not where our grandparents are buried, but home is 
where our grandchildren will be raised.'' Hence, America is home, and 
defending it against all who seek to harm her is our priority. 
Defending the Muslim American community against those who scapegoat and 
stereotype Islam and Muslims is a priority in effective civic 
engagement and securing our nation.

Terminology
    While radicals use Islam to justify terrorism, we cannot afford to 
lend Islamic legitimacy to extremist groups. Hence, using ``Islamic'' 
before terms like fascism, terrorism, violent radicalism is 
counterproductive. MPAC appreciates the initiative of the Committee on 
Homeland Security to make distinctions between Islam and its 
exploitation by extremists.
    In conclusion, to the mainstream Muslim American community, Islam 
is the antidote to violent radicalization. The empowerment of the 
mainstream Muslim American community is the most effective but 
underutilized resource in creating effective counter-terrorism 
strategies. MPAC is optimistic and is ready to foster cooperation and 
mutual understanding between our government and the Muslim American 
community.

    Ms. Harman. Thank you very much.
    I watched your neighbor to your left, Mr. Cilluffo, nodding 
through your testimony, Mr. Al-Marayati, and I bet we are going 
to hear some reinforcement right now.
    Mr. Cilluffo.

  STATEMENT OF FRANK J. CILLUFO, DIRECTOR, HOMELAND SECURITY 
      POLICY INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY.

    Mr. Cilluffo. Madam Chair, Congressman Reichert, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today. And sitting next to my 
friend, Brian, and Mr. Al-Marayati, I do have to say they 
covered much of the waterfront. And I applaud the efforts of 
both and have worked with Brian for a number of years.
    But prevention of radicalization and homegrown terrorism is 
one of the most pressing issues of our time. And you should be 
commended for your strong leadership in examining and, more 
importantly, in acting on these matters. As director of the 
Homeland Security Policy Institute at GW, much of my time and 
energy over the least 18-months has been directed towards the 
study of radicalization. In particular, the processes by which 
people become radicalized. In prisons, over the Internet, here 
at home and also abroad. Unfortunately, recent events such as 
the Fort Dix case, the Toronto 18 and the JFK plot remind us 
that there is no basis for complacency. The up side is that the 
domestic plots we have seen thus far have demonstrated intent 
but not much in terms of capability. We would be foolish 
however to ignore the real possibility that both intent and 
capability may indeed marry up in the future.
    Testifying before the subcommittee last September, I 
presented the key findings and recommendations of a report on 
prisoner radicalization produced jointly by HSPI and the 
University of Virginia's CIAG. Our study recommended that 
Congress establish a commission to investigate the issue in 
order to better understand the nature of the threat and the 
baseline of activity and effectively assess current prevention 
and response efforts and recalibrate them accordingly. 
Radicalization, wherever it is occurring and through whatever 
venues, is only one subset of the battle of ideas. And 
effective response strategies and tactics need to extend beyond 
our borders. In fact, it is a bit of a misnomer to speak of 
homegrown terrorism. We live in a largely borderless world, and 
the threats that we face are transnational. Activity in 
cyberspace reinforces that point.
    In a second joint study, we looked at Internet-facilitated 
radicalization and found that Internet chat rooms are now 
supplementing and replacing mosques, community centers and 
coffee shops as venues for recruitment and radicalization by 
terrorist groups such as al-Qa'ida. A copy of our report has 
been submitted for the record. By incorporating and 
manipulating local, political and economic grievances, some of 
which are legitimate, extremists have woven an effective tale 
of an imaginary clash of civilizations between the West and 
Islam. The extremist's compelling call to action, based partly 
on myths and falsehoods, begs for the development of an 
effective counternarrative, one that unpacks, forcefully 
refutes and powerfully responds to the extremist's own. The 
West is not at war with Islam, and terrorism is, in fact, un-
Islamic.
    The real challenge for us here is to offer a dream of sorts 
and provide real opportunities for a better tomorrow to those 
who feel alienated and marginalized and who might otherwise be 
seduced by the extremist ideology. The U.S. needs to catch up 
in the cyber battle of words and ideas, to deconstruct the al-
Qa'ida brand campaign and turn it into nothing more than a 
passing fad. To succeed, of course, this means much more than 
slick marketing and framing of the message. Our words must 
match our actions.
    The bottom line is that radicalization is not a well 
understood phenomenon. Greater study of the life cycle of a 
terrorist, when one goes from sympathizer to activist to 
indiscriminate violence, is needed in part to identify trigger 
points and possible points of intervention.
    With all this as background, your proposal to establish a 
commission is a necessary step to meet and defeat existing and 
potential threats to the United States. Your legislation will 
go a long way towards pulling together what is known in this 
field, identifying gaps and seams in our knowledge and chart a 
more clearer course ahead. That foundational research may then 
be used to better inform and shape policies. The importance of 
tapping knowledge and experience of both the public sector at 
all levels of the government and private and nongovernmental 
sectors needs to be emphasized. And while there is no one-size-
fits-all approach to the challenge at hand, there still is a 
substantial value in looking beyond our borders to the work 
done and lessons learned or at least observed by other 
countries.
    In fact, HSPI has inaugurated an ambassador roundtable to 
do just that. And your legislation clearly recognizes all of 
this. It is important to note, though, that the role of 
government is limited in this context. The solution for this 
problem lie primarily at the grassroots level in local 
communities where trusted incredible leaders can have real 
impact with their fellow citizens. That is not to say that 
government at all levels don't have a contribution to make. 
Cultivated mutual respect and understanding between officials 
and communities founded on a solid education about Muslim 
cultures an Islam is crucial.
    Let me emphasize that radicalization is not unique to 
Islam, nor is it a new phenomenon. Historically, extremist 
beliefs have been used to subvert the ideals of every major 
religion in the world, and Islam is one of those several. And 
they actually do run directly counter to the basic tenets of 
Islam, and most polls overseas would demonstrate that.
    Let me just get to two quick points. I know I am over the 
time. But I do think it is important that we appreciate the 
sensitivities and the perceptions of those who feel that they, 
their religion and entire community are being targeted as a 
result of the extremist action of a fringe element. And I think 
you should really run with the protections you have there in 
terms of civil liberties and recognize that balance, and I 
applaud that. And I also think there are two points in 
particular that could be enhanced in the legislation. The first 
is, it is not comprehensive of all the disciplines that need to 
be addressed. Behavioral science needs to have a front row seat 
at the table, as do social networking experts. This is largely 
a networking phenomena, so people in the IT sector who can do 
that. And I would also suggest that, since terrorists don't 
adhere to artificial timelines, and 18 months is an awful long 
way to go before you come up with a complete report, that you 
should have interim reporting requirements and draft that into 
the legislation itself.
    In closing, thank you for your leadership. HSPI stands 
ready to help however we can, and I thank you for the 
opportunity to be here with friends and colleagues.
    [The statement of Mr. Cillufo follows:]

                Prepared Statement of Frank J. Cilluffo

    Chairwoman Harman, Ranking Member Reichert, and distinguished 
Members of the Intelligence, Information Sharing and Terrorism Risk 
Assessment Subcommittee, thank you for the opportunity to testify 
before you today. The prevention of radicalization and homegrown 
terrorism is surely one of the most pressing issues of our time, and 
your leadership in examining these matters--and, more importantly, in 
acting on them --is to be heartily commended.
    As Director of the Homeland Security Policy Institute (HSPI) at The 
George Washington University, much of my time and energy over the last 
eighteen months has been directed towards studying the phenomenon of 
radicalization in various contexts: in prisons, over the Internet, here 
at home in the United States, and also abroad. Sadly, recent events 
have only reinforced the importance of this task and driven home the 
sense of urgency that should accompany both examination of and action 
against radicalization. The Fort Dix case and the JFK airport plot 
revealed just days ago, serve as only the latest reminders that there 
is no basis for complacency. The threat is real and plainly, our shores 
will not act as a failsafe against it. Yet it is something of a 
misnomer to speak of ``homegrown terrorism'' for the term is suggestive 
of watertight compartments that do not in fact exist. To the contrary, 
we live in a borderless world and the threats that we face are 
similarly transnational. That said, the United States remains in some 
respects reasonably well situated. Other countries are currently 
experiencing a more full-blown manifestation of certain dimensions of 
the problem such as the United Kingdom. In a sense therefore, we have 
an opportunity to get ahead of the curve and deal proactively with 
these elements before they have the chance to flourish more vigorously 
in this country. Fortunately, the domestic plots that we have seen in 
the U.S. to date have evidenced intent but not much in the way of 
capability--but we would be foolish to think that the two cannot or 
will not come together in future.
    Testifying before this Subcommittee in September 2006,\1\ I 
presented the key findings and recommendations of a special report 
produced jointly by HSPI and the University of Virginia's Critical 
Incident Analysis Group (CIAG), and entitled Out of the Shadows: 
Getting Ahead of Prisoner Radicalization.\2\ That report was informed 
by a dedicated volunteer task force of subject matter experts in law 
enforcement, intelligence, behavioral science, and religion (including 
imams, chaplains, and scholars). The study reached the fundamental 
conclusion that Congress should establish a commission to investigate 
in depth the matter of prisoner radicalization by conducting an 
objective risk assessment in order to better understand the nature of 
the threat, and calibrate and formulate our prevention and response 
efforts accordingly. We emphasized the complexity of the problem and 
the associated need to take a multidisciplinary approach to analysis, 
and further urged that the commission seek to balance the practice of 
religious freedom while preventing the spread of radical ideology. A 
number of the priority issues we recommended be addressed by the 
commission were specific and targeted to the prison setting, such as 
the need for more data and greater study of prisons outside the 
jurisdiction of the Federal Bureau of Prisons. Others were more wide-
ranging, including for example the identification of broader areas of 
dialogue with the Muslim community to better facilitate cultural 
understanding, mutual respect, and trust. Prisoner radicalization is of 
course but one subset of the battle of ideas, and the former cannot be 
divorced from the larger context in which it is embedded. Effective 
response requires strategies and tactics that extend not only beyond 
bars but beyond borders. A commission with a broader mandate than that 
described above is therefore to be welcomed.
---------------------------------------------------------------------------
    \1\ Frank J. Cilluffo, ``The Homeland Security Implications of 
Radicalization,'' testimony before the Intelligence, Information 
Sharing, and Terrorism Risk Assessment Subcommittee of the U.S. House 
of Representatives' Committee on Homeland Security, delivered on 
September 20, 2006.
    \2\ Frank Cilluffo, Gregory Saathoff, et al., September 19, 2006.
---------------------------------------------------------------------------
    Like the nation's prison system, cyberspace constitutes another 
understudied but fertile ground for radicalization in the United 
States. With the twin aims of redressing the dearth of research in this 
area and offering powerful prescriptions for action, HSPI and CIAG 
jointly undertook a study of Internet-facilitated radicalization titled 
NETworked Radicalization: A Counter-Strategy, a copy of which is 
submitted along with this statement.\3\ That report, supported by a 
task force of highly regarded subject matter experts from a range of 
disciplines, found that Internet chat rooms are now supplementing and 
replacing mosques, community centers and coffee shops as venues for 
recruitment and radicalization by terrorist groups like al-Qa'ida. The 
real time, two-way dialogue of chat rooms has enabled extremist ideas 
to be shared, take root, be reaffirmed and spread exponentially. By 
incorporating and manipulating local political grievances--some of 
which are legitimate--extremists have woven an effective tale of an 
imaginary ``clash of civilizations.'' The extremists' compelling ``call 
to action'' based partly on myths and falsehoods begs for the 
development of an effective counter-narrative that forcefully refutes 
and responds to the extremists' own. One wonders how it is that the 
nation that gave rise to Silicon Valley and the Internet itself, came 
to be outplayed in this realm. In part the answer lies in the fact that 
we have not channeled our collective talents and energies into that 
end. Irrespective of the reason, it is clear that the U.S. needs to 
catch up in this cyber-battle of words and ideas. However, unless 
elements of the counter-narrative emanate from within the Muslim 
community and are conveyed by voices that are trusted and credible 
within those communities, the opportunity to achieve impact will be 
limited at best.
---------------------------------------------------------------------------
    \3\ Frank Cilluffo, Gregory Saathoff, et al., May 3, 2007. See also 
Frank J. Cilluffo, ``The Internet: A Portal to Violent Islamist 
Extremism,'' testimony before the U.S. Senate Homeland Security and 
Governmental Affairs Committee, delivered on May 3, 2007.
---------------------------------------------------------------------------
    As in the case of prisoner radicalization, the challenge in 
cyberspace should be appreciated in larger context. Granted, where 
appropriate we should seek to deny or disrupt extremist access to and 
extremist efforts through the Internet via legal and technical means 
and covert action. At the same time however, it is crucial that we bear 
in mind wider and deeper goals and themes such as the need to offer an 
alternative to those who feel alienated and marginalized. Another 
example is the importance of intelligence work to inform 
counterterrorism. These underlying or foundational elements merit 
special consideration as they are critical components of our efforts 
concerning radicalization writ large. By way of illustration, our 
report therefore offers a cluster of recommendations intended to foster 
intra--and cross-cultural dialogue and understanding to strengthen the 
ties that bind together communities at the local, national and 
international levels. Likewise, we emphasize that the need for 
additional behavioral science research into the process of 
radicalization both online and offline, must be recognized and 
addressed.
    Radicalization is not a well understood phenomenon, hence greater 
study of the life cycle of a terrorist--specifically, the process by 
which an individual becomes motivated to listen to radical ideas, read 
about them, self-enlist or respond to terrorist recruiting efforts, and 
ultimately, undertake terrorist activity--is needed in part to identify 
trigger points and possible points of intervention. Against this 
background, your proposal to establish a National Commission on the 
Prevention of Violent Radicalization and Homegrown Terrorism is a 
necessary step to meet and defeat existing and potential threats to the 
United States. The stated primary purposes of the Commission--(1) to 
``[e]xamine and report upon the facts and causes of radicalization and 
homegrown terrorism in the United States. . .''; and (2) ``to [b]uild 
upon and bring together the work of other entities. . .,'' both 
domestic and foreign \4\--are suggestive of both a sorely needed 
initiative and a well thought out methodology. Rigorous scrutiny of 
radicalization undertaken by academics and practitioners alike, as 
mandated by this legislation, should go a long way towards pulling 
together what is known in this area, identifying the gaps in our 
knowledge, and moving forward. In turn, that foundational research may 
then be used to better inform and shape policies, which should prove to 
be all the more effective as a result of this evidence-based tailoring. 
To date, some work has been done, but not under a broad rubric or with 
the active engagement of the federal agencies necessary. To the extent 
that solid work on these critical areas has already been done, it 
should not be discarded or ignored. Collaborative endeavors undertaken 
by HSPI and CIAG, and projects undertaken by other similar entities 
such as the Center of Excellence for the Study of Terrorism and 
Responses to Terrorism (START) based at the University of Maryland, 
offer a starting point for more in-depth investigation and analysis by 
the Commission and its staff.
---------------------------------------------------------------------------
    \4\ Manager's Amendment to H.R. 1955 Offered by Ms. Harman of 
California, Section 899C(b).
---------------------------------------------------------------------------
    The importance of drawing upon knowledge and experience that may 
reside in both the public sector, at all levels of government, and the 
private and nongovernmental sectors must be emphasized--as must the 
value of looking beyond our borders to the work done and lessons 
learned (or at least observed) by other countries. While there is no 
one size fits all approach to the challenges under study, since each 
country setting derives its experience and response from a different 
set of political, economic, social and cultural circumstances and 
history, there remains substantial value in carefully examining whether 
certain elements may be relevant to the U.S. context. Put differently, 
in a borderless world such as ours, we would be acting at our peril if 
we failed to take into account ``foreign government studies of, reviews 
of, and experiences with radicalization and homegrown terrorism,'' as 
required by the legislation.\5\ This is an area where HSPI has been 
particularly active. Our Ambassador Roundtable Series on International 
Collaboration to Combat Terrorism and Insurgencies, co-sponsored by the 
Inter-University Center for Terrorism Studies, builds upon and 
institutionalizes efforts to engage ambassadors, heads of state and 
cabinet level officials in an ongoing dialogue on counterterrorism 
efforts of multiple nations. This coming Monday, in fact, HSPI will be 
hosting the United Kingdom's Home Secretary, Dr. John Reid, who leads 
the UK's effort to protect the public from terrorist attack. His 
address will speak to the future of terrorism, the ``battle of ideas,'' 
international law, and recent developments in the U.K. Secretary Reid 
will offer insights on radicalization and potential methods to counter 
it.
---------------------------------------------------------------------------
    \5\ Ibid., sec. 899C(b)(2)(C).
---------------------------------------------------------------------------
    Yet the role of government whether foreign or domestic is perforce 
limited in this context, as the solution sets for the problem under 
discussion must emanate principally from the grassroots, from local 
communities, their leaders and the citizens that reside there. 
Governments at the federal, state, local and tribal levels certainly 
have a contribution to make however, and there is also a measure of 
interplay between the public and private sectors that is and will 
continue to be crucial to combating radicalization at home and 
elsewhere. For instance, law enforcement at the local level should 
develop new relationships and deepen existing ones within Muslim 
communities as local figures are best placed to identify radicalization 
at its earliest stages. Cultivated mutual respect and understanding 
between officials and communities, founded on a solid education about 
Muslim cultures and Islam, is critical. Notably, in the Fort Dix case, 
the mosque attended by three of the plotters quickly called an 
``emergency town hall meeting'' to invite law enforcement, other 
officials, and members of the public ``to ask anything they want about 
the mosque or about Islam, and to publicize a ringing denunciation of 
terrorism and violence of any sort. . .''.\6\
---------------------------------------------------------------------------
    \6\ Chris Newmarker, ``Mosque where Fort Dix suspects struggles 
with suspicion in wake of plot,'' International Herald Tribune, May 15, 
2007, http://www.iht.com/articles/ap/2007/05/15/america/NA-GEN-US-Fort-
Dix-Plot-Mosque.php.
---------------------------------------------------------------------------
    Let me emphasize that radicalization is not unique to Islam nor is 
it a new phenomenon. Historically, extremist beliefs have been used to 
subvert the ideals of every major religion in the world and Islam is 
only one of several that terrorists may invoke to justify acts of 
violence (though such acts run counter to the very tenets of Islam). In 
cyberspace, extremist organizations of all stripes, adhering to any 
number of radical belief systems, are present and have used the 
Internet to radicalize and recruit others. Likewise, in addition to 
radical Muslim influence, U.S. prisons have borne the imprint of right-
wing extremist groups and cults known to participate in criminal 
activity. Unfortunately, there exists a certain symbiosis between the 
two and some radical right-wing groups have found common ideological 
cause with extremists identifying themselves as Muslim. Moving forward, 
it is imperative that due care be accorded to the sensitivities and 
perceptions of those who may feel that they, their religion and entire 
community are being targeted as a result of the egregious and extremist 
action of but a few. Section 899F of the legislation, which speaks to 
the protection of civil rights and liberties while preventing 
ideologically-based violence and homegrown terrorism, recognizes the 
delicate balance that is required here.
    Turning to the more specific aspects of your proposal, in 
particular the nature of the composition of the Commission and the 
proposed qualifications of its members, it is suggested that two 
members each shall be appointed by various officers of government and 
that in these instances those two members ``shall not be members of the 
same political party.''\7\ Without wading too far into comment on this 
particular clause, it bears reiterating that homeland security is a 
national endeavor that should be pursued collectively and 
collaboratively with vigor and determination, drawing on the tremendous 
reservoir of talent, imagination and energy that exists in this 
country. If ever there was an issue or challenge that should be 
considered and acted upon in nonpartisan fashion, this is it. The 
stakes are simply too high for any other approach. Section 899C(e) is 
also reflective of this understanding as the section calls for 
Commission members to be ``selected solely on the basis of their 
professional qualifications, achievements, public stature, expertise, 
and relevant experience in the areas of sociology, terrorism, religion, 
counterterrorism, cultural anthropology, sociology, juvenile justice, 
education, and corrections.'' At the risk of offering an overly 
``micro-level'' comment, I would suggest adding to the foregoing 
passage the phrase ``including but not limited to,'' so that the clause 
would read in relevant part as follows: ``. . .in the areas including 
but not limited to sociology,'' et cetera. This is more than mere word-
smithing as there may be other disciplines that could provide trenchant 
insights into the matters at hand and yet those disciplines may not be 
referenced in the list cited above. The behavioral sciences constitute 
one such example.
---------------------------------------------------------------------------
    \7\ Manager's Amendment, supra note 4 at sec. 899C(c).
---------------------------------------------------------------------------
    Continuing on at the structural level of analysis, the Amendment 
requires the Commission to issue within 18 months of its first meeting 
``a report of its findings and conclusions, and any recommendations for 
immediate and long-term countermeasures to homegrown terrorism and 
ideologically based violence and measures that can be taken to prevent 
violent radicalization and homegrown terrorism from developing and 
spreading within the United States.'' \8\ However, terrorists do not 
adhere to artificial timelines. Given the seriousness of the 
Commission's endeavors and the potential consequences that could result 
should an incident materialize in the U.S., it may in fact be desirable 
to embed a greater sense of urgency by imposing one or more interim 
reporting requirements that would set in motion the sharing of key 
ideas with relevant partners at an earlier stage of the process. Those 
parties should be in a position to feed the Commission's preliminary 
thoughts into key channels that could have real impact--as they 
identify areas of missing information/data and matters of concern--and 
potentially change outcomes. Even if this concept is not accepted, the 
requirement to issue recommendations should be firm and broad, and 
should be highlighted more so than is the case at present, as the 
ultimate objective of the legislation is to solve a remarkably complex 
problem and the way to achieve that end is through action. Further 
study, reflection and planning are all crucial tasks, but it must be 
remembered that they are in essence merely precursors to our 
fundamental aim, which is to act effectively so as to defeat the 
challenge posed.
---------------------------------------------------------------------------
    \8\ Ibid., sec. 899C(r)(1).
---------------------------------------------------------------------------
    Although I have focused my remarks on the Commission itself, H.R. 
1955 also establishes a grant program to prevent radicalization and 
homegrown terrorism in the United States.\9\ The text accords 
eligibility to any State to apply, and funds granted may be awarded by 
States to ``agencies and organizations, including but not limited to, 
social services agencies, community-based groups, educational 
institutions and non-governmental organizations. . .'' .\10\ 
Conceptually, this passage cuts two ways. On the one hand, it reflects 
an appreciation of the fact that an array of entities and actors must 
be involved in prevention efforts. On the other hand, the possibility 
of taint or ``blowback'' (in the lay sense of the term) inheres in this 
grant proposal as the credibility of the programs and messages being 
delivered by private and non-governmental entities may be impugned or 
challenged simply due to the fact they are funded by the government. By 
noting this conundrum, it is not to suggest that the grant program 
should be abandoned altogether. To the contrary, it could enable a 
range of productive initiatives that could yield real impact and that 
might otherwise never get off the ground for lack of funding. That 
said, our expectations of what may be achieved through this particular 
mechanism should be realistic and should discount from the get-go the 
fact that government is but one player of many in this area and it is 
neither the most crucial nor without drawbacks even in terms of limited 
involvement. Further and more importantly however, there is an issue of 
sequencing: it may in fact be best for the Commission to complete its 
work first so as to better inform the proposed grant program.
---------------------------------------------------------------------------
    \9\ Section 899C(a).
    \10\ Section 899C(e).
---------------------------------------------------------------------------
    In light of the most recent developments with the Fort Dix and JFK 
airport plots, it is my sincere hope that quick action is taken to 
establish this Commission, so that this critical work can get underway. 
Thank you again for according me the privilege of testifying before you 
on this issue of fundamental national importance. The work of the 
Subcommittee and its staff in driving this matter forward is a genuine 
public service. Should it be possible to assist your efforts in any way 
in days ahead, HSPI stands ready to do so. I would now be pleased to 
try to answer any questions that you may have.

    Ms. Harman. I thank all of the witnesses. Each of you has 
just made an additional contribution to this focus that we have 
had ongoing for some time. I am hopeful that all of your 
testimony will be carefully digested by us and by staff and 
that the legislation we look at next week will include many 
good new suggestions that you have just made.
    Each member will now have 5 minutes to question the panel. 
And I will first recognize myself for questions. My first 
question is about language, names. And let me say why I raise 
this. If we launch a commission and its name is something that 
offends many of the people we are trying to reach for, that 
would be a mistake. On the other hand, if we try to come up 
with some warm and fuzzy name that is not clear about what we 
are studying, I think that could be a disservice. So let me ask 
all three of you--obviously, I recognize that Mr. Al-Marayati 
has a lot to contribute to the answer, but all three of you 
do--about three terms: radicalization, each of you used it; 
homegrown terrorism; and ideologically based violence. What 
about these names? And I am not sure in what order, but does 
any of these names give you heartburn in terms of a description 
of what we are trying to look at with this new commission? I 
would appreciate an answer from all of you, starting with Mr. 
Al-Marayati.
    Mr. Al-Marayati. Thank you very much. I think that is a 
very important question, Congressperson Harman. And I don't 
have a problem; I don't think we have a problem with any of 
these terms. These are real issues that no one should be in 
denial of their manifestations. I think we have two problems in 
general in terms of terminology. The first is a selective 
application of terminology. And I think you covered that very 
well in your introductory remarks, that we are not talking 
about one particular religion. And indeed homegrown terrorism 
did not begin just a few years ago, but with Timothy McVeigh, 
with Puerto Rican terrorists, with so many other examples of 
terrorism in the past.
    The other issue is affording religious legitimacy to 
extremists by using terms like Islamic fascism, Islamic 
radicalism, Islamic terrorism. Number one, that is an 
inaccurate description; as I believe we agree, the essence of 
Islam is against terrorism. There is no room for terrorism in 
the front. Number two, when we give in to extremists and let 
them use jihad or jihadi to describe themselves, we are giving 
them religious legitimacy and taking it away from the Muslim 
mainstream.
    Ms. Harman. You'll note, I did not use that term.
    Mr. Al-Marayati. Exactly. I just wanted to underscore and 
emphasize that point.
    Mr. Dicks. Will the gentlelady yield for just one minute?
    Ms. Harman. Yes.
    Mr. Dicks. What terms would you use?
    Mr. Al-Marayati. The terms that were used without religious 
labels; radicalization, terrorism, extremism, ideologically 
based violence. And I believe that that is a constructive way 
of establishing the dialogue with the Muslim American community 
on this issue. And you will find more constructive discussions 
on the issue.
    Mr. Dicks. Thank you for yielding.
    Ms. Harman. You are welcome.
    Reclaiming my time, Mr. Jenkins, Mr. Cilluffo would you 
comment on terminology please.
    Mr. Jenkins. Just two quick comments. I do think the term 
radicalization needs the adjective violent in front of it, 
because that will keep us out of some trouble in terms of 
conveying a wrong message that we are in any way attacking 
people's ideas here. Homegrown is a perfectly good term, 
however in the actual conduct of the commission's work, I think 
they would have to realize that, in today's world, we do live 
in a global society. And so many of the issues that come into 
play here, when we look at what we call homegrown 
radicalization, it involves Internet, which in fact is a global 
network. It may involve recruiters from abroad. It may involve 
going abroad for training.
    Ms. Harman. Let me just interrupt you there. I take that 
point. And Mr. Cilluffo made it in his testimony. But a premise 
would be that there is something unique about the American 
experience. And we better understand that because there are 
many more Americans here who could be radicalized than there 
are, let's just start with Americans. Americans abroad, is that 
correct?
    Mr. Jenkins. Absolutely. That is why I would leave 
homegrown in the title of the commission. But as I said, the 
commission ranges more broadly in terms of how that feeds into 
homegrown terrorism.
    Ms. Harman. I appreciate that much.
    Mr. Cilluffo.
    Mr. Cilluffo. Madam Chair, I do think words really do 
matter. And how we use those words are critical in determining 
our success, and this is not an academic exercise. I have no 
qualms with any of the terms you have identified. I would note, 
however, that, and this is not a political statement, but I 
don't use the term GWOT, for example, when looking at these 
issues overseas.
    Ms. Harman. GWOT is Global War on Terrorism?
    Mr. Cilluffo. Global War on Terrorism. To some extent, that 
empowers the adversaries we are looking at. I do use, I call 
it, and this is quite the bumper sticker made for TV, but it is 
a transnational insurgency underpinned by a global jihadi 
salafist movement. Now I do use the term jihadi, but in each 
case, I will identify that it is being misconstrued by a small 
set of individuals. And if you couple salafist with the jihad, 
that is in large part what we are seeing, so I am not taking 
that in isolation. But I very much agree with my colleague's 
points. Let's not make them any more religiously codified than 
they should be. They are not warriors.
    Ms. Harman. I thank you for your answer. My time has 
expired.
    The Chair now recognizes the ranking member for 5 minutes.
    Mr. Reichert. Thank you, Madam Chair. I appreciate your 
question. I think, in my past line of work, again, I'll 
mention, the use of words really does affect people. It touches 
their heart in so many different ways. As a homicide detective 
for 13 years, in the beginning of my early career investigating 
murder cases, the term closure was used for families who had 
lost a loved one who was murdered. And we learned very quickly 
as we moved through some very important cases that there is 
never any closure, and it was deeply offensive to the families. 
They got answers to questions about their loved one's death, 
but they never got closure.
    So I appreciate the question from The Chair and your 
answers from the panel. It is also that important that people 
who are members and active participants of this commission, and 
certainly there are recommendations made in the legislation, do 
any of the three of you have any other thoughts besides, I know 
the behavioral science person recommended, any other thoughts 
on who should be participating in this commission?
    Mr. Jenkins. I think that the commission would be well 
served to have, in addition to behavioral scientists, to have 
either as members or certainly as advisors or witnesses that 
would assist its work those involved in intelligence issues, 
particularly at the local police level, because those are the 
people who directly interface with the various communities 
involved. I would, at some peril, suggest the inclusion of a 
lawyer, a constitutional lawyer. We are going to be touching 
upon, any commission, any commission that addresses this is 
going to touch upon extremely sensitive issues, issues 
involving free speech, religion, immigration and, therefore, 
would do well to have the kind of guidance that could be 
provided by a Federal judge or someone who is well versed in 
these matters.
    I would agree with Frank Cilluffo that our behavioral 
scientists should definitely include someone in the area of 
both individual motivations as well as social networks. So we 
have legal. We have behavioral. We have intelligence. Those, I 
think, would be essential components.
    Mr. Reichert. Thank you.
    Mr. Al-Marayati.
    Mr. Al-Marayati. Yes, in addition to what my colleagues 
have stated, I think what we need are experts for the community 
in terms of community-based policing to understand how to 
detect and how to intervene in cases, such as Mr. Gadahn, that 
Congresswoman Harman stated. In that particular situation, 
could there have been intervention in the mosque with that 
individual? Because here is the dilemma, I can just be very 
frank with you, about how Muslim Americans are feeling about 
the situation. If they intervene, they are afraid that law 
enforcement and those in the media are going to exploit the 
situation and say that they are associating themselves with 
terrorists, not just in mosques but also on the Internet. 
People are afraid to go into these extremist Web sites because 
they don't want a law enforcement agent knocking on their door 
the next day asking them questions and misconstruing it as 
association with terrorists. So experts that can help in 
determining how to intervene in these situations would be very 
helpful.
    Number two, experts on Islamic ideologies of human rights 
and human decency I think are important to make these important 
distinctions and to explain it to the American public in a way 
that satisfies our first amendment, the establishment clause, 
and separation of church and state so that the American public, 
as was stated earlier, gets a greater level of confidence that 
we are providing some answers, not just talking about the 
problems.
    Mr. Reichert. Thank you.
    Mr. Cilluffo. I would just add, Congressman Reichert, that 
I agree very much that community policing is at the heart of 
this matter. It is not going to be decided here inside the 
Beltway. And it can't only be in a counterterrorism 
environment, because that creates a defensive posture to begin 
with. It has got to be part of a larger community police 
effort. I also agree very much with Brian, the Intelligence 
Community, not only intelligence-led policing but people who 
have had experience in understanding the opportunities and the 
limitations of intelligence from a national security 
standpoint.
    I also think those with experience in organized crime. To 
some extent, we have been uniting our adversaries when we need 
to start disaggregating. And I think that the role that we 
played in Cosa Nostra, it was in large part because they 
started losing confidence in one another. And trust is the key 
to everything. Trust is the key to the good guys. Trust is the 
key to the bad guys. You start eroding some of their trust; 
maybe it starts falling apart. So I would highlight those.
    The other area I would highlight and accentuate is the 
international component. We have a lot to learn. And hopefully, 
we don't learn it and have the same scar tissue that some of 
our friends overseas have. And I would like to see that somehow 
find its way into its findings.
    And then, finally, of course, to have resonance, we need 
Islamic scholars. The solution sets in part are going to come 
from within, within the Muslim community. And to have 
resonance, that is who we need to look toward.
    Mr. Reichert. Thank you for your answers.
    Thank you, Madam Chair.
    Ms. Harman. The gentleman's time has expired.
    The Chair now recognizes Mr. Dicks from Washington for 5 
minutes.
    Mr. Dicks. Thank you. I want to give each of you a chance 
to talk about this subject. And first of all, I appreciate your 
testimony here today. And I want to compliment the chairman and 
the ranking member. We have gone around the country and looked 
at a few different situations. How big an issue is this? 
Stepping back from a commission, the big commissions authorized 
by Congress before, if the administration doesn't want to 
cooperate, that can be a problem. So I hope we can get 
cooperation. But how big a problem is this? We know we have got 
a terrible problem internationally. There is no question about 
that. And we know we have these specific examples. But just 
from your experience, the American people want to know how 
major a concern is this?
    Mr. Jenkins. Let me start with that. And at the risk of 
sounding Rumsfeldian, you don't know what you don't know. Where 
we have looked at this issue, where local law enforcement and 
Federal authorities have examined it, we have in almost every 
case have been surprised to find out that there was more going 
on than we previously had imagined. The concerns, for example, 
about recruiting in prisons, these were not discovered until we 
actually began to look at the issue. And once we looked at the 
issue, we discovered there were things going on here. When 
there were increased intelligence activities as a consequence 
of 9/11, we discovered that in fact there was more activity 
going on than we previously had imagined. I don't want to 
exaggerate this. The country was not filled with sleeper cells, 
but certainly there was ample evidence of active radicalization 
and recruiting going on in the country.
    Now, thus far, based upon the conspiracy and clusters that 
we have uncovered since 9/11, there does not seem to be a 
significant cohort of terrorist operatives in the country. But 
there is active recruiting, and there is the development of 
intent. And I want to make a point here about intent. The 
Hamburg cell had intent but no capabilities until they showed 
up in Afghanistan. The Leeds cell that carried out the bombings 
in London had no capability. They may have acquired some in a 
training camp somewhere. To move out of that realm of terrorism 
and to go back to Timothy McVeigh, Timothy McVeigh had intent 
and developed his own capability. Intent is the constant here. 
Capability is the variable. So when we look at these various 
conspiracies, the only difference between a handful of hotheads 
fantasizing about violence and somebody actually doing 
something that is going to result in dreadful carnage is the 
acquisition of this capability. There are lots of bunches of 
guys around the country that are fantasizing about violence. It 
only needs one of them, one individual in one of those clusters 
to have some capability, and we could confront what some of our 
allies have confronted on their soil.
    Mr. Dicks. Would the other members want to comment on this?
    Mr. Al-Marayati. Yeah. From the community standpoint, we 
don't see a movement for radicalization. We don't see similar 
expressions of extremism like we have seen in Europe. And 
probably the reasons that we discussed earlier, in terms of the 
level of integration here in America, American Muslims tend to 
be higher in terms of education than the average, higher in 
terms of income than the average and definitely much better 
than those in Europe. If there are cells at this time, and if 
there is just one cell or one individual, that is one too much. 
So we are not looking at it in terms of whether there is a 
widespread movement for radicalization or not.
    However, we can identify the problem. And if we identify 
the problem in an effective, precise way, then that will help 
us towards a solution. If we identify the problem in a 
simplistic way, in a sweeping way, we believe that will 
exacerbate the situation. And the further you push young 
Muslims especially to the margins of society, then the more 
likelihood that they could be recruited by these extremist 
recruiters. So we should not even allow that situation to 
happen, and therefore, the prevention of those social ailments 
in our society should be of utmost concern; therefore we should 
not impose the cloud of suspicion on young Muslim Americans 
today.
    Mr. Dicks. Can we finish this?
    Ms. Harman. Yes.
    Mr. Dicks. Thank you.
    Mr. Cilluffo. I appreciate the question, and it is very 
difficult. I often say, since the end of the Cold War, 
forecasting has made astrology look respectable, and I don't 
have a crystal ball. We simply don't know. But the question we 
do have to ask is, how much is too much? And I would agree with 
my colleague that one is too much. And the last thing we want 
is to have hearings where us or anyone else are before you all 
after an incident occurs, and there is going to be the knee-
jerk attempt to take much more Draconian measures, which are 
going to further push the issue to making it a bigger set of 
challenges.
    I might note, though, that the UK asked those same 
questions prior 7/7. And for anyone who is interested, I am 
hosting Home Secretary John Reid on Monday for a speech and 
other things, but if you are interested. What they noticed in 
the 7/7 activities, which was quite alarming, is the speed and 
the pace of radicalization. We are talking months. We are not 
talking years. We are not talking many months. It was very 
rapid. So I think that we don't want the cures to be worse than 
the disease. We want to get out in front of this issue. And I 
can't quantify or qualitatively give you a concrete answer. But 
as Brian said, in all of our reports, the more we uncovered, 
the more we found. And clearly, the messages are being targeted 
at a Western demographic and a young demographic.
    Mr. Dicks. Thank you.
    Ms. Harman. The gentleman's time has expired. Before 
yielding to Mr. Perlmutter, I just note that the British 
experience is somewhat different. There is a huge British 
Pakistani population that travels home for a month a year for 
family reunification purposes. Tens of thousands of people go 
to Pakistan each year. So there is an opportunity there for bad 
things to happen that I don't see a parallel for in America, 
which is another reason to study radicalization from the 
American perspective.
    The Chair now yields 5 minutes to Mr. Perlmutter of 
Colorado.
    Mr. Perlmutter. Thanks, Madam Chair.
    And thank you for bringing your bill forward and convening 
this panel. We met in Torrance, what, 2 months ago, 3 months 
ago, and I was hoping that the prison experience and Mr. Gadahn 
were aberrations. And since then, we have had the pizza-Fort 
Dix experience; we have had Toronto; and just recently, JFK. 
And so it is becoming more prevalent and, quite frankly, a 
little more frightening. But, Mr. Cilluffo, you asked or you 
used a couple words that sort of resonated with me. You said 
these guys are not warriors; they are a bunch of thugs, I think 
you said.
    Mr. Cilluffo. It is New York speak.
    Mr. Perlmutter. No, I appreciate that. You also talked 
about the Cosa Nostra, the gangster kind of element to this. 
Gangsters may be more focused on economic, making money and 
that kind of power. This is more ideologically driven. But 
between that comment and Mr. Jenkins' comment about intent is 
the constant and capability is the variable; if you were both 
commission members, what would you be focusing on based on your 
use of Cosa Nostra and thugs, but also taking into account his 
statement about intent, constant, capability as a variable, if 
you please?
    Mr. Cilluffo. That is a complex question. And I am not sure 
I have a quick answer for that. But clearly it is the 
convergence of bad guys and good stuff, and the good stuff 
being technology, capability, training, execution. And that 
training can occur anywhere. So what I meant by Cosa Nostra is 
also that terrorism is a team sport. We haven't found a single 
profile. In fact, quite the contrary. The one thing we do know 
is that social bonds matter. And it is often friends, family. 
And those are very difficult to use conventional instruments to 
be able to respond to. But what I do think, in terms of 
organized crime, this is where we have worked on some of the 
Federal, State, local interactivities, and I firmly believe 
that this isn't going to come from the beltway. It is not going 
to come from overseas intelligence. This is largely going to 
have to come from communities that are going to see when 
something is awry. So I do think we have got to focus on 
intent. But I also think that there is a lot of intent. The 
question is, when do the two marry up with capability. And 
there we have got a problem.
    Mr. Perlmutter. Mr. Jenkins, if my complex question made 
any sense to you?
    Mr. Jenkins. It is a complex question. I am not quite sure 
I have got it framed right. Let me just put up here a note 
agreeing with the other witnesses. In looking at this, I would 
say, let's begin with the fact that, right now, we have a 
success story. We have a success story in terms of our ability 
as a Nation to assimilate immigrants, to provide them with 
futures in this country. And therefore, we do not confront the 
same problems that many of our European allies do. Second, we 
have a success story thus far in being able to identify and 
uncover some of these conspiracies that we have discovered. Not 
all of them have turned out to be significant in terms of 
capability. But as I said, certainly intent was there.
    So one of the things I would be focusing on or advise the 
commission, rather, to focus on, is, how can we enhance that 
success? How can we improve our local intelligence 
capabilities? How can we improve the relationships between 
police activities at the local level? I emphasize at the local 
level, and the various communities and avoid doing things that 
are going to have counterproductive effects, and that is by 
isolating, alienating, stigmatizing and angering that same 
potential reservoir of recruits that the terrorist ideology is 
going after. So how can we take advantage of our inherent 
strengths in this country, add some capability and ensure that 
we are not going to spoil that? That is especially important, 
by the way, if, heaven forbid, an incident should occur. Having 
good intelligence and knowing what is going on and having good 
relations is going to prevent the country from propelling 
itself into a series of measures that in fact will imperil all 
of our civil liberties.
    Mr. Al-Marayati. Could I just add?
    Ms. Harman. Yes.
    Mr. Al-Marayati. We mentioned intent and capability. Also, 
I think the overriding factor is our capability to intervene, 
as my colleague has stated. And if we look at the model that 
was stated before, it simplifies its activists to violent 
radicalization. The intervention point is in the early stages 
when there are sympathizers. The mechanism for intervening is 
ideological intervention. And just to share with you internally 
what is happening in the Muslim American community, there is a 
training of religious leaders to intervene in a healthy, 
constructive way to make sure that sympathy is addressed within 
the Islamic context, that you cannot sympathize with murder, 
you cannot sympathize with wholesale violence; and number two, 
that these individuals who are being trained need to be 
empowered and need to be given the resources to make sure that 
we prevent the further stages of radicalization.
    Ms. Harman. The gentleman's time has expired.
    I would just like the record to be clear that we are 
talking about sympathy with violent action, not sympathy with 
any particular religion or religious tenets.
    Mr. Al-Marayati. Exactly. Exactly.
    Ms. Harman. The Chair now yields 5 minutes of questions to 
Mr. Shays of Connecticut.
    Mr. Shays. Thank you. I think there are two inconvenient 
truths in the world--the one that Al Gore talks about and the 
other that the 9/11 Commission talks about. I think it is an 
incredible statement and shows, as the Commission says, we are 
not confronting terrorism as if it is some ethereal being; we 
are confronting radical Islamist terrorists.
    One, I want to know if you agree with that, each of you. 
Secondly, I want you to tell me what you think our country's 
strategy is to deal with this threat, if you think it exists. 
The Cold War threat was contain, react and mutually assure 
destruction. So I would like you to tell me, one, if you agree 
with what the 9/11 Commission said and; secondly, what you 
think our strategy is to deal with that threat.
    Mr. Jenkins. First of all, I think the threat is real. 
There is no question about it. Second, in terms of the 
radicalization--
    Mr. Shays. ``The threat is real'' is not what I asked.
    Mr. Jenkins. Yes.
    Mr. Shays. Do you agree that we are confronting as a--there 
are a lot of real threats. They highlight this as a major 
concern of the United States.
    Mr. Jenkins. It is the principal threat that we face in 
this country right now--
    Mr. Shays. Okay.
    Mr. Jenkins. --and I suspect that we will face for decades.
    Mr. Shays. Thank you.
    Mr. Jenkins. We are talking about a phenomenon that cannot 
be dealt with by driving tanks across the desert and reaching 
Baghdad.
    Mr. Shays. So what is our strategy to deal with that?
    Mr. Jenkins. I am critical of us here. I think that we, 
understandably, right after 9/11 focused our efforts on the 
degrading the operational capabilities of our terrorist folks. 
We had to do that because we did not know if another 9/11 was 
in the pipeline at that moment, but what we have not done and 
what is far behind is our understanding of and our strategy for 
dealing with the frontal end of it.
    Mr. Shays. So what is the strategy?
    Mr. Jenkins. We do not have a strategy.
    Mr. Shays. What should the strategy be?
    Mr. Jenkins. The strategy should be intervening in the 
radicalization and recruitment process before they reach the 
stage of terrorist operatives. At that point, unless we can 
interrupt that radicalization and recruiting process, we are 
condemned to a strategy of stepping on cockroaches one at time. 
We are going to be doing it forever.
    Mr. Al-Marayati. Can I take a--
    Mr. Shays. All three of you, sure.
    Mr. Al-Marayati. Ambassador Edward Jarugian, in the late 
1980s or early 1990s, said we need to have a dual track 
approach. Now, the one is to bring culprits to justice. So 
intelligence, incarceration, prosecution, conviction of 
criminals is one important track, and then the second track is 
to deal with the root causes and the social factors that lead 
to what Mr. Jenkins has aptly identified as the radicalization 
process.
    So our strategies should be a dual-track approach. I agree 
with the 9/11 Commission that it is a Muslim task, and if it is 
a Muslim task, then there are internal issues within the Muslim 
community, and there are national and international issues that 
deal with relations between these Muslim communities and their 
governments and their law enforcement, and we can get into more 
specifics later. I just disagree with the nomenclature and the 
terminology because we do not want to give more religious 
legitimacy to the terrorists than they are already trying to 
obtain.
    Mr. Shays. Thank you.
    Mr. Cilluffo. Mr. Shays, I would actually agree with both 
of my colleagues here, but let me put it a little differently. 
Clearly, it is the greatest threat facing the United States 
today, and others can exploit asymmetric means as well to take 
the United States on, which they cannot do tank for tank/plane 
for plane in the traditional war on a conventional battlefield.
    Let me say that I think the time has come to recognize we 
have got to stop only attacking the structure and start 
attacking their strategy. This is a battle of ideas. There is 
only one side on the battlefield right now, and it is not us, 
and our diplomacy efforts should not be about projecting 
American values; it should be about debunking and unpacking 
their narrative to demonstrably show how it is misusing and 
distorting a religion.
    I would also add that, when looking at our overseas 
function, my simple philosophy in 2 seconds--because I know my 
time is going to get cut off--but we have got to isolate the 
military and operational planners from the organization, 
organizations from one another, that from a movement and that 
from society at large. Every step of the way, there are 
different instruments of state craft that have to be brought to 
bear. Heretofore, the emphasis has been on the kill and 
capture, and that is where Congress is spending the money as 
well.
    So I think we need to look to how we can marshal other 
instruments of state craft. I am not suggesting that the 
military component is not important; it is part of it, but we 
need to get other instruments to the fore.
    Ms. Harman. The gentleman's time has expired.
    The Chair now recognizes Mr. Dent of Pennsylvania for 5 
minutes of questions.
    Mr. Dent. Thank you, Madam Chair.
    On the issue that you were just talking about of 
radicalization and religious arguments, how would you recommend 
that we deal with these religious arguments? I guess, you know, 
maybe these Islamic extremists have been motivated by religious 
arguments.
    Is it incumbent upon moderate Islamic clerics to help 
deradicalize? How do you think the Commission should address 
that specific question? I thought maybe either one of the two 
of you.
    Mr. Cilluffo. I do think we need to--when I give public 
speeches on these sorts of issues, I always ask the audience, 
who is often an informed one--and I am not going to ask for an 
answer here because I know I am in the seat of taking 
questions--but how many people actually can tell me how many 
statements Osama bin Ladin has made? How many people have 
actually read them? You would be surprised at how few hands I 
will ever see raised.
    Before we can come up with a counternarrative, we have to 
understand what the narrative is. Why is it having resonance? 
Why is it sticking? That is where, I think--stage one, let us 
understand--forget the bad pun--what makes them tick. Then we 
have got to identify what a compelling counternarrative is, and 
that is going to have to, to a large extent, be driven, or be 
at least communicated from within the Muslim community. The 
Koran is arguably the most important instrument we have to show 
how it is being distorted by others--Islamic scholars, cultural 
experts--and we need to provide an opportunity for others to 
have a better tomorrow. That is all part of it. I do not think 
we have done that, and in fact--
    Mr. Dent. So, with this type of commission, you think it 
would be wise to engage the modern Islamic community to help 
debunk these--
    Mr. Cilluffo. Unequivocally.
    Mr. Dent. Whatever term. Understood.
    Mr. Al-Marayati. Yes. I think we should empower Muslim 
religious authorities who are speaking about the ideology of 
Islam that looks at Jews and Christians as people of the book, 
not as infidels, but looks to human beings, other human 
beings--as the Koran stated, ``We have created you with human 
dignity. The children of Adam are created and bestowed with 
human dignity.'' It talks about the role of Muslims and Islam 
within the modern era, not as something that we have to 
replicate from the 15th century or from the 10th century or 
from before then but looking at modern issues of human rights, 
of democracy, of co-existence, of something that is very 
different from when Islamic civilization was at the top. In 
other words, we live as Muslim minorities here, and the Muslim 
world is a very different Muslim world than it was 1,000 years 
ago.
    Let me just add to that, and I think my colleague was 
alluding to this, that there have been polls done of Muslim 
mainstream communities about violence. Those who supported 
violence use political arguments. Those who oppose violence use 
religious arguments, and so we have to be aware of that 
narrative in order for the counternarrative to be effective.
    Mr. Dent. That is well said.
    My next question is to you. Is it Mr. Cilluffo?
    Mr. Cilluffo. Correct.
    Mr. Dent. You have, I think, been quite a bit involved with 
prison radicalization. What do you think the Commission should 
do with respect to our penal system and to the radical Islamic 
movement that is currently going on in many prisons?
    Mr. Cilluffo. You know, that is a long answer, but let me 
suggest that part of the solution, there again, is getting 
Muslim chaplains who can actually use the faith that prisoners, 
themselves, have been distorting, and prisons have always been 
incubators for radical ideas, I mean whether you are looking at 
Adolf Hitler, writing Mein Kampf, whether you are looking at 
Joseph Stalin, filling the ranks of the Bolshevik Revolution, 
and I can give many other examples. It has always been an 
incubator for radical ideas. You have got a captive and a 
captured audience with a lot of time on their hands, but I 
think a lot of the emphasis heretofore has been on the Federal 
Bureau of Prisons. That is a very small percentage of our 
prison population.
    Mr. Dent. I agree.
    Mr. Cilluffo. 82 percent State and county prisons and 
jails.
    California, Madam Chair, has done a phenomenal job. We used 
them as a case study. L.A. County and LAPD, those are the 
models we should be looking at, and I can go ad nauseam.
    Mr. Dent. My time is about up, but for maybe a later round 
of questioning here, when should we intervene with this 
radicalization process? How should we go about that?
    My time is up. I do not know if you want to take that into 
the next round.
    Ms. Harman. If I might point out to Mr. Dent, that question 
was asked in a slightly different form a little bit earlier, so 
we are going to go to one more question each. That seems, to 
me, to be about the right period of time, and if you would like 
to ask that question at that point, you should feel free to, 
but we do have a fairly full record.
    I will just point out to Mr. Cilluffo that the cell that 
was arrested in Torrance, the site of our prior hearing where 
Mr. Jenkins testified, was radicalized in Folsom State Prison. 
So, while I would like to give California a lot of credit, 
there is still a lot of work to do.
    We will go to a partial second round now and ask those 
members who wish to to ask one additional question starting 
with Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair. I will make mine 
quick.
    We talked about keeping it simple, and we have had a lot of 
discussion about community, working together, education, 
community-oriented policing. I just wanted to ask the panel if 
any one of you are aware of a program called Cops and Culture. 
The National Crime Prevention Council of the King County 
Sheriff's Office, when I was the sheriff, implemented that 
program in King County along with the Seattle Police 
Department, and I think it might be a tool that could be used 
in this effort.
    Go ahead.
    Mr. Jenkins. Absolutely. There are three ways local police 
are going to be able to address this.
    One is through routine criminal investigations that then 
take other directions. That was the case in Torrance. The 
second is through community policing, the relationships with 
the community so that communities are comfortable in a 
relationship with the police and provide information, and the 
third is through dedicated intelligence efforts, that is, a 
portion of police resources with Federal assistance, 
specifically focusing on areas of concern.
    Mr. Al-Marayati. Another point to underscore to reinforce 
your theory, Congressman Reichert, is where we have seen plots 
occur in terms of violence against the United States in the 
name of Islam, we have also seen the that there are Muslims who 
are key in unfoiling those plots, and the U.K. terror plot 
would not have been stopped had it not been for a responsible 
Muslim British citizen's stepping forward to the authorities 
and letting them know about this plot. So the key in community 
policing is the partnership and the cooperation and the comfort 
level with the community so that they can share information 
with our law enforcement without the fear of reprisal, without 
the fear of stigmatization.
    Mr. Reichert. Specific to this program, it really gets into 
educating the local law enforcement agencies about the cultures 
and about the ethnic groups that they are serving.
    Mr. Al-Marayati. Exactly.
    Mr. Cilluffo. Congressman Reichert, I think that is an 
excellent program, and there are others that we need to be 
building upon because it all comes down to trust. It is all 
trust--
    Mr. Reichert. Yes.
    Mr. Cilluffo. --and it is individuals. These are human 
beings, and you need people who can feel comfortable talking to 
another individual, and that is all based and contingent upon 
trust, and it is going to have to come from the bottom up. My 
Latin teacher, if he is still around on this earth, in the 4th 
grade would probably kill me because I will butcher the words, 
but there is a term, ``Audiator et altera pars,'' which 
basically means ``let the other side be heard,'' and I think we 
need to be listening, not only doing, but I would also add that 
law enforcement at the local level, I do not think, has the 
analytical capacity right now or the breadth or the depth, and 
there is still this belief that Washington is going to come 
down with that silver bullet when and where something will 
occur.
    You know what? We have never done indication or warning 
intelligence well, but I think we have got to get down to brass 
tacks, requirement setting. What do I need? What do I have? How 
can I provide that information and ask the questions from both 
the Federal and the State and local? But community policing is 
even more important in that equation.
    Mr. Reichert. Thank you, Madam Chair.
    Ms. Harman. I thank the gentleman.
    I might suggest that that Latin proverb apply to Congress.
    The Chair now yields to Mr. Dicks for one additional 
question.
    Mr. Dicks. You know, you mentioned Mein Kampf and Stalin. 
There is a history in the United States of radicalization. This 
is not the first episode of this. I mean--so I think we need to 
take that into account as we look at this. This is very 
important phenomena, and I guess the prison issue--Mr. 
Cilluffo, if you would like to go on a little bit further about 
this prison aspect of this--what is good, what is bad. I mean, 
you know, one thing about a commission is that it kind of 
forestalls doing things. My view is, you know, I do not want to 
wait for a commission. I mean, we ought to have a commission--I 
would support that--but I think there are things we can be 
doing now, especially on this prison issue, where we can make 
some progress forward.
    So, would you like to comment on that?
    Mr. Cilluffo. Thank you, Congressman Dicks.
    We did look at white supremacy. We did look at other gang 
activity of every stripe and ilk, and we came to conclude that 
the activity is the activity. The modus operandi is the modus 
operandi. Some were converting to Islam--which conversion is, 
arguably, a very good thing. The problem is you have got those 
who can manipulate that, and they have little to no knowledge 
coming in about the faith so they can easily be co-opted by a 
charismatic leader, which was the case in California. When I 
was talking about the best practices in California, I was 
actually talking post new Folsom because then they actually 
started providing the Joint Regional Intelligence Center, JRIC. 
It was part of that intelligence stream. The Bureau of Prisons 
was being looped into the whole process. Until then, they were 
treated, to a large extent, in isolation. So we have got a lot 
to do in terms of the prison systems, and a lot of that is 
information, but first and foremost, it is a priority setting 
issue.
    If you are in charge of a prison and you are worried about 
gang activity and getting stabbed on a daily basis, it is very 
difficult--and we are already overcrowded and overpopulated, 
and they have got more than their handful of challenges. To 
throw yet another set of issues onto an already full list is 
difficult, so part of that is raising awareness, and what I 
would like to see is a confederation of not only the FBOP, the 
Federal Bureau of Prisons, but I would like to see that much 
better looped into the State prisons and county jails where 
much of the activity is occurring.
    Mr. Al-Marayati. I think one of the issues in terms of 
Muslim chaplains is looking at the rate of bringing Muslim 
chaplains into the prison system. To my understanding, it has 
been frozen. There have been no additional Muslim chaplains 
added since the case of Captain James Yee in Guantanamo, number 
1.
    Number 2, we have seen in various studies that religion, 
whether it is Judaism, Christianity or Islam, in the prison 
system is a positive force for prisoners so that they do not 
return to crime after they leave the prison system. So, just in 
general, I think we need to look at how religion plays a 
constructive role in the prison system.
    Mr. Cilluffo. Could I build on that, Madam Chair, just for 
one second? Because it is the integration into society where 
you have those points where we were talking about intervention. 
That is absolutely critical. Many convert for protection. We 
called it priz-lam. We had a couple of imams who referred to it 
as ``jailhouse Islam,'' and they get better food. So part of it 
is really going to be at that exit, at that facilitation. That 
is where we have to actually spend more resources in general in 
the prison system, and I would note that most major prisons are 
not in urban areas. So, in many cases, you are not going to 
have a very large Muslim community to begin with, so it is hard 
to get to the prisons.
    Mr. Jenkins. Can I make one comment here quickly?
    Stepping out of the issue of prisons specifically, we have 
had examples in our history of domestic radicalization to 
violence and to terrorist activity in this country. The 
difference now, however, since previously, say, in the 1960s or 
in the 1970s, is that the means of communication have 
developed, and we are now facing a foe that has been very 
sophisticated in using the most modern means of communications 
to convey a message to create a community, a sense of belonging 
to something. We have to deal with that threat, but other 
radical groups will learn from the use of these techniques and 
will adopt them to their own means, so we are dealing with 
something--we dealt with this historically, but we are dealing 
with something new today.
    Mr. Dicks. Thank you.
    Ms. Harman. Mr. Perlmutter for one question.
    Mr. Perlmutter. Thanks, Madam Chair. You said that in such 
a way that maybe--can I put like four questions into one 
question like I did the last time?
    Ms. Harman. [Shakes head.]
    Mr. Perlmutter. The question I have--and Mr. Jenkins, you 
were sort of hitting on it--is there is a different way to 
communicate that is much broader and that may be more potent. 
Is there an age group that is particularly susceptible to this?
    Mr. Jenkins. It is the same age group--yes, there is, and 
it is the same age group that is susceptible to being recruited 
into gangs. It is the same age group that is susceptible to 
being recruited into a lot of things. We are talking about 
primarily young men in their teens on up into their early 20's. 
These are young men who are going through, in many cases, just 
because of the age, identity crises, looking to define 
themselves. Because of their age, again, they have lots of 
energy, lots of hormones. That is the age bracket that commits 
crime in this country. That is the age bracket that goes into 
gangs. It is what young men do, and unfortunately, if you have 
a narrative, a narrative that exalts violence, that attempts to 
project that violence as a personal obligation, that justifies 
it, that offers the tantalizing prospect of clandestinity, 
identity, all of those are very appealing to that specific age 
group.
    Mr. Perlmutter. Thank you.
    Mr. Al-Marayati. If I could just pick up on the issue of 
identity then--and this connects with Mr. Dent's question--in 
terms of intervention, this is where we are intervening now, 
and we need to be more proactive and provide more resources in 
developing a healthy Muslim-American identity that America is 
home, that we counter gutterization within the Muslim-American 
community whether it is psychological gutterization or any 
other form of gutterization. In doing so, we will prevent this 
form of antisocial behavior of this group, and antisocial 
behavior could be manifested in drugs, in promiscuous sex or in 
joining groups with violent ideologies. So the root cause here 
is an identity crisis that we have to address.
    Ms. Harman. Thank you. Thank you very much.
    Thank you, Mr. Perlmutter.
    Mr. Shays, one question.
    Mr. Shays. Thank you, Madam Chairwoman.
    First off, this is an excellent panel. I really wish we 
were going to spend more time because there is more that we 
could learn.
    I think it is instructive that none of us really could 
state what our strategy is. Yet, we could state what the Cold 
War strategy is. That, to me, is--what we need first is a huge 
national dialogue about what we are confronting. In the short 
run, it has got to be protect, prevent, preempt, and sometimes 
act unilaterally, and you may call that getting the 
cockroaches, but it has got to be that, and then we fill it in 
with other things that we did during the Cold War with Sputnik, 
education and so on to compete economically with Russia.
    What I just want to say--and I want your reaction--is I 
find it repugnant, having just finished reading. Elie Wiesel's 
``The Night'' last night, that I would have to speak to or deal 
with people who are so sick that they would literally wrap 
themselves in a weapon and blow up themselves in front of 
children, and somehow dealing with that is striking me as 
incomprehensible, and it may be a disconnect that we have, but 
it is somehow like we have to kind of negotiate and deal with--
I just react to it.
    Mr. Al-Marayati. I agree, Mr. Shays. This is a sickness. It 
is a psychosis. It is something that the average human being, 
the normal human being, can not comprehend, and we have to 
address it objectively and effectively. There is an ideology of 
suicide culture that is taking on a cloak of religion, and I 
think what we are all seeing here is that we have to understand 
the development, the metamorphosis of this suicide culture. We 
really have not invested enough in the ideological battle 
against this suicide culture.
    So we should do that, and also, we have to listen to the 
mainstream. We are not listening enough to the mainstream 
Muslim communities. Our policies have isolated the mainstream 
Muslim-American communities who, like you and I, cannot explain 
why there is a suicide culture in the name of their religion 
right now, and we should also speak out more against 
Islamaphobes like Pat Robertson, who said yesterday that Islam 
is not a religion but a move for worldwide domination. When 
they hear that message from a religious leader, they view that 
as a message that is closely associated with the U.S. 
Government, as a friend of the U.S. Government. So we need to 
also address how to deal with our own extremists here in 
America who are fermenting anti-Islamic rhetoric and how they 
exacerbate the situation.
    Mr. Cilluffo. Mr. Shays, could I just add to that?
    I certainly would hope no one at this table would suggest 
negotiating with people who would actually take those steps. 
That is very different--again, getting back to my isolate, 
military and operations plans, organizations, it is that second 
ripple effect that I am most concerned about. Those who are 
potentially teetering on the edge who can go one way or the 
other. In dealing with the military and operational planners, 
we are going to have to use the heavy instruments of 
government--covert action, law enforcement, military, string 
them up, string them along. I do not know.
    It is a case--by--case basis, but it is that next tier of 
folks that is the group we are potentially losing, and we wrote 
a major report on the narrative and counternarrative, so 
obviously, I agree with everyone here, but it is also worth 
noting that it is not what you say; it is what people hear, and 
we have to understand what they are hearing.
    Mr. Jenkins. I want to underscore that.
    Once they strap on a bomb and become a weapon, that is, 
obviously, not the point for having discussions about identity 
and radicalization. They are a weapon and must be dealt with as 
such.
    The point of intervention is to try to do things that are 
going to reduce the reservoir of those who will be caught up in 
this narrative, which is essentially an ideology of death. This 
is an ideology that exalts death. It connects the individual 
with some glorious utopian pass which may or may not have 
existed and promises them earthly pleasures in some future 
life, leaving the now which is nothing and, therefore, enables 
an individual to simply turn himself into a weapon, and he 
thinks of himself as nothing more than a weapon. We have to be 
able to intervene to ensure that there is not going to be a 
large reservoir of those who can be recruited to that.
    Mr. Cilluffo. Could I just add one point?
    Because it is that reaffirmation, that moral equivalency 
that people then will be emboldened to actually act. That is 
that reservoir we have to keep flipped on the other side.
    Mr. Al-Marayati. And also there is the terrorist, and there 
are audiences, and terrorists try to influence audiences, and 
we should embrace and engage the audiences. The terrorist is 
not somebody we need to--you are right. We are not here to 
understand or to develop an agreement with a terrorist. They 
should be handled swiftly and with justice.
    Ms. Harman. Thank you. The good news is that I need to 
leave now, but Mr. Dicks will take over the chair, and if our 
members have additional questions, we can go until noon, 
assuming the witnesses can stay.
    I just want to observe that this is one of the best panels 
we have ever had and that what you have just said will directly 
influence a legislative proposal, which we are working on now, 
to set up a national commission but, not only that, perhaps 
some other legislative initiatives which I believe this 
committee on a unanimous basis--that will be a miracle in this 
Congress--but on a unanimous basis will embrace, and for once, 
you know, Congress is accused of more heat than light. We might 
actually shed some light on a very serious set of problems.
    So I just, personally, want to thank our witnesses and our 
members for an enormously productive hour and a half.
    Mr. Dicks. [Presiding.] Mr. Dent.
    Mr. Dent. Thank you, Madam Chair. I concur with your 
remarks. I am sorry I did not get here for the beginning of it.
    The media, the Internet and religion, I think we can all 
agree, play a role in radicalization and, hopefully, a role in 
the prevention of the mitigation of radicalization.
    Given our first amendment, how do we, as a government and 
as a society, effectively combat all of these radicalizing 
forces that you gentlemen have so eloquently discussed here 
today?
    Mr. Jenkins. Two things with regard to that.
    First of all, combating what is taking place on the 
Internet or in other communications media does not necessarily 
mean controlling or restricting. It means that is simply the 
new terrain of battle. That is where we are going to fight. It 
means having counternarratives. It means taking advantage of 
those same communications channels. Indeed, the irony of this 
is that this Nation, which invented the Internet, which is so 
creative in exploiting communications for commercial and 
political purposes, has been so flatfooted in engaging those 
same means of communications to deal with this problem. So we 
can engage it without necessarily impinging upon the first 
amendment. In some areas, however, I think that we do look at 
appropriate controls.
    For example, I mean it is interesting that they are now 
talking about putting controls on the Internet to reduce fraud 
on sales through eBay. We control the Internet to deal with 
issues of child pornography and other things. So the fact that 
it is simply this thing called the ``Internet'' does not mean 
that we cannot appropriately update our laws and concerns to 
deal with specific problems.
    Mr. Dent. As you answer these questions, could you also 
just address, you know, the role of the government in terms of 
on the Internet, and who is going to put up these religious 
arguments? Is that the government's role? Whose role is that?
    Mr. Al-Marayati. It is the Muslim-American community's role 
to put up these arguments, and I think what we need to discuss 
in terms of cooperation between these communities and the 
government is where the community does not feel stigmatized, 
but they enter extremist Internet chat zones to argue against 
extremism or to intervene with a potential radical or 
sympathizer of radical ideology in the community or in the 
mosque so we do not shut these individuals from our communities 
and then they become ripe for the pickings of extremist 
recruiters.
    So I do not see a problem in the first amendment here. If 
the government were promoting Islam in any way, that is the 
problem, and that is not what we seek. I think what we are 
talking about is understanding the Muslim world and the Muslim 
western communities in a more nuanced way with a little bit 
more precision, more accuracy so that that will help us 
sociopolitically and empower us in the tools against extremism.
    Mr. Cilluffo. Let me pick up on a couple of those points, 
and this is something we have written a lot on, so I will try 
to be brief, not my strong suit again.
    When we are looking at who the solution sets are, we cannot 
look at this, Mr. Shays, I think, as a grand strategy. We 
actually have to look at it from a decentralized perspective, 
which is very difficult for government to do, and government 
only has a small role in this overly complex set of issues. 
Shutting Web sites down, it is like Whackamo. Hit it here. It 
is just going to pop up somewhere else. Quite honestly, the Web 
sites are not even the issue. We need to get into the chat 
rooms. It is the chat rooms that are replacing the smoke-filled 
bars of the LaCarre novels where espionage used to occur. That 
is where people--that is where it goes from the cyberworld to 
the physical world. That is where they actually start 
connecting. We have got to be in there in a hand-to-hand kind 
of way, demonstrably showing how people are misusing the 
Internet.
    The other thing is that I agree with Brian. Greater 
transparency is also the solution here. We have got the ideas 
on our side. Let us use them and make sure we are doing that 
directly, and there is a program--and I am not suggesting that 
all of their programs are very good--but the Saudis have a 
program called the ``Tranquility Program'' where they are 
actually going into the Internet chat rooms, and they are 
bringing in Islamic scholars to refute how they are being 
misused. We have got to start thinking about that.
    Then on the counternarrative, we all hear about terrorists 
and their martyrs. Well, it is about time that some of our 
martyrs be remembered, and we have got to remind the 
terrorists--and they are trying to create this clash of 
civilizations of the West versus Islam--who is being killed by 
terrorist bombs, largely Muslims. So how can they, in their own 
defense, make these sorts of cases? We have got to remind 
people of that. In Beslan, there are hundreds of kids being 
killed. I could not think of a more powerful, motivating attack 
to abhor terrorism. We need to start reminding people and 
showing the graphic visuals.
    As to the bombing in Jordan, at the wedding, which actually 
was al-Zarqawi's is undoing, I think, in the long run, that had 
negative consequences. Obviously, it was a horrendous attack, 
but we have got to start packaging that. Casa Blanca. I could 
go on and on and on and on. They are packaging it very 
effectively. We have not, and I think that is part of this 
counternarrative.
    Mr. Dicks. Just following up on that, does the government 
play a role in this? I mean is this the State Department? Are 
they supposed to be involved in this ideological struggle on 
the Internet or in the chat rooms? I mean, is that the way to 
do it or does it have to be dealt with all outside of 
government?
    Mr. Jenkins. No, it does not.
    You know, during the Cold War, we had something called the 
``United States Information Agency.'' It was an institution 
that was set up to basically conduct the war of ideas with our 
adversaries in the Soviet Union. That does not mean that the 
government, itself--that some government official was the 
author of every message, but it was a way of facilitating 
messages to get to audiences. The government has been involved 
in the sponsorship of things like radio for Europe and other 
communications mechanisms.
    The problem we have now is that we do not have in this 
country any institution which brings together these various 
components of what we are trying to do in the State Department, 
the Defense Department and elsewhere in terms of 
communications. We do not have a single point to focus our 
efforts; we do not have a strategy, and therefore, we are still 
grappling with this particular issue, but we have done this 
during World War II. We have done this during the Cold War. It 
is a matter of learning some new lessons and, perhaps, 
remembering some old ones and creating mechanisms that can 
facilitate this ideological combat.
    Mr. Al-Marayati. And I do not know of a single instance 
where there has been a meeting of all of these components, in a 
single setting, to develop a strategy. So I think the 
government can help in at least hosting these discussions that 
are needed with all of these components now looked upon in a 
central manner.
    Number 2, I think the government needs to start 
publicizing. As Mr. Cilluffo said, we need to look at the 
heroes on our side--on America's side-- and those people who 
have been on the front lines, battling this extremist ideology, 
they need to be empowered, and therefore, publicizing the 
relationship between, for example, the Justice Department or 
the State Department with these Muslim-American individuals and 
Muslim-American institutions is critical.
    Lastly, there are exercises of government that have impeded 
the progress of the ideological battle, and we need to look 
more closely at that.
    Mr. Dicks. Well, not to be partisan here, but Abu Ghraib is 
an example, I would think, that hurt America's reputation and 
image in the world, and it helps the other side, you know, from 
my perspective.
    Mr. Al-Marayati. Exactly.
    Mr. Cilluffo. Mr. Chairman, it is not to suggest that 
government has a role. I do not necessarily agree that it is 
the same role with our counter concealment deception programs 
and ideological programs vis-a-vis the Soviet Union just 
because I think we have got so many other actors in the 
nonstate/onstate kind of environment that it is different, but 
what we really do need to be doing is enabling and empowering 
and packaging--how many people in this room can tell me that 
they know that a number of Muslim associations in the United 
States issued statements denouncing terrorism shortly after 9/
11? Very few people.
    Well, there have been thousands of such groups, but no one 
hears them, so we need to make sure that someone is packaging 
that, not just in the United States but overseas as well, and I 
would say--there was a 60 Minutes episode not too long ago that 
I thought was very powerful. Hassam Batu is one of the primary 
al-Qa'ida recruiters for the 7/7 bombers, termed, but he came 
out denouncing terrorism, saying he got duped by al-Qa'ida. 
That individual is going to have a much greater impact and 
resonance on a potential recruit than I would or anyone else 
would. I just look at my own children when I try to explain 
things. If I use the Disney Channel, they get it and PBS, but 
the point being--
    Mr. Dicks. Thank you.
    Mr. Cilluffo. --we need people who have credibility with 
the constituencies we are trying to work with, and the 
government has a role. We have a covert action role we have to 
play in the shadows. I am not sure we are doing that very 
effectively, and we also have a role in empowering others, but 
that is not going to be the solution.
    Mr. Dicks. Mr. Shays.
    Mr. Shays. Abu Ghraib was talked about in this country for 
months and months and months and months. It was an outrage, and 
we should have made it clear it was an outrage. It was talked 
on Al Jazeera for months and months and months and years. Yet, 
when there were 50 people found in a torture chamber outside of 
Baghdad with, you know, drill holes, tortured for months, it 
was not even a front page story in this country, and it 
certainly was not covered overseas, and when I read Al Jazeera 
in English and see it covered there, it is an outrage, 
describing what American soldiers do, and I know for a fact 
they were giving candy to kids being lured out, and then they 
are getting blown up. It is an outrage how Al Jazeera covers 
what we are doing there. I will just make another comment and 
your comment to that.
    I am not impressed with most of the denunciations by the 
Muslim community against terrorism, because they always have a 
``but,'' and the ``but'' is ``but, you know, we have problems 
in Israel with Palestinians,'' ``but we have this but the 
western world needs to do this.'' There is no ``but'' to 
terrorism, and I would like to see some of these denunciations 
without the word ``but'' and then an explanation.
    Mr. Al-Marayati. I do not think there was a ``but'' in the 
reference to Mr. Cilluffo's--
    Mr. Shays. That is, you know, the extreme example.
    Mr. Al-Marayati. I think that is actually the rule, Mr. 
Shays, not the exception.
    Mr. Shays. Well, you know what? Then I would like that 
documented to me.
    Mr. Al-Marayati. Sure, we can provide you with all of the 
documentation.
    Mr. Shays. Not a paragraph that follows if there is not a 
``but'' but a paragraph that says, ``but the western world 
needs to get with it.''
    Mr. Al-Marayati. I do not think anybody is adding the 
``but.'' I think, maybe, you or your staff needs to look more 
closely not to add the ``but.''
    Mr. Shays. You know what? I did look closely because I 
followed it, and it was my committee that followed it after 
September 11th, and we heard a few, but there were more 
``buts'' than there were not, and I stand on that.
    Mr. Al-Marayati. Let us look at that together, and we will 
clarify that for you in terms of the important denunciations of 
terrorism as just an absolute, number 1.
    Number 2, in terms of media, I agree with you 
wholeheartedly. I think there should be a panel in terms of how 
the media--the international media and the domestic media 
here--plays a role in exacerbating tensions between the United 
States and the Muslim world, and we can have a whole panel on 
that discussion as well.
    Mr. Dicks. Mr. Dent, are you all done? Okay.
    Mr. Perlmutter.
    Mr. Perlmutter. Just a comment. I assume we are winding 
this down--
    Mr. Dicks. Yes, we are.
    Mr. Perlmutter. --but I would hope that each and every one 
of you, if you were asked, would be a commission member or 
advise this commission that we are putting together because it 
is important. Things seem to be speeding up here. You know, it 
is a very, you know, vulnerable or open age, that group, and 
that group moves fast. I have three in that age category, and 
they are reading everything, watching everything, and they move 
quickly, and so I just thank you all for your time and for your 
expertise.
    Mr. Dicks. Mr. Dent.
    Mr. Dent. Mr. Chairman, I just want to follow up with what 
Mr. Perlmutter just said.
    As this Commission moves forward, I hope these three 
gentlemen have some role in it. This has been an enormously 
helpful hearing for me.
    I yield back.
    Mr. Dicks. Let me ask you just one final question.
    On the question of the Internet, you suggested that 
Congress is looking at various restrictions. I mean, are you 
suggesting, you know, a restriction on violent context when you 
take radicalization to violence, that that would be limited?
    Mr. Jenkins. You know, that has to be defined, and I think 
that is something we want to look at very carefully, so I do 
not want to jump ahead to the conclusion before we look at what 
are the reasonable possibilities, but to provide, for example, 
direct instruction, not only incitement, but specific 
instruction of ``this is how you make bombs, and this is how 
you should place the bomb``--even in any other media, 
incitement is not protected by free speech when there is an 
anticipation that it is going to lead to criminal action. So to 
provide incitement and instruction with a reasonable 
expectation that somebody is going to use it, yes, we do have 
to look at that. How we can address that, I am not sure. That 
would be a hell of a challenge for the Commission, but 
certainly, it is not off the table.
    Mr. Dicks. Any other comments on that?
    Go ahead.
    Mr. Cilluffo. I would very much agree with Brian. Sure, we 
also need, for intelligence exploitation, to do it anyway. It 
is the chat rooms, though, where there is the interactivity, 
the real-time, two-way communication between individuals and 
the reaffirmation of Abern attitudes, and to some extent, we 
are even seeing the perceived creation of a virtual umah where 
they do not have anyone who is denouncing some of what they are 
doing, so they actually start reaffirming one another, and 
there is something--we talked about child predators. On the Net 
in particular, there could be six people, but they start 
emboldening one another because they start believing that what 
they actually do is acceptable. It is not it. It is really not. 
One of the things we looked at, which we could not come to any 
conclusion on in our report, is whether or not the media has a 
role to play here in terms of exposing like ABC or NBC--I 
forget which one it is--in exposing child predators, but that 
would be crossing the line, Brian just said, between incitement 
activity where that may be against the law to do that, but I am 
not suggesting we do not shut them down. If we can, of course, 
we do. Realistically speaking, we are not going to get to 
everything.
    Mr. Dicks. Mr. Al-Marayati.
    Mr. Al-Marayati. Yes. Let me just segue then to the larger 
question of the government's role of how it can help.
    Number 1, I agree that there needs to be ideological 
independence of these indigenous Muslim-American groups that 
are fighting the extremist ideology, and to associate 
government with that would tarnish their credibility in the 
community, so I agree with that.
    Where cooperation comes in then is, for example, the 
Federal funding of programs that teach young students--all 
students--on our campuses the difference between incitement to 
violence and free speech. It can come also in the financing of 
programs for partnership between law enforcement and local 
communities. It can also come in the form of ad council 
advertisements, talking about how to detect criminal activity/
terrorism and what to do or it can also be a positive ad 
council advertisement talking about the process of pluralism--I 
mean, the greatness of pluralism and the process of 
integration, especially that of young Muslim-Americans into our 
great society. So these are some of the recommendations that we 
have in our Muslim-American youth report that we hope you can 
take a look at.
    Mr. Jenkins. Can I just make one final point?
    Mr. Dicks. Yes, go ahead.
    Mr. Jenkins. We have probably paid more attention and spent 
more money--I am not saying it is not a noble cause--in a 
government-sponsored effort to reduce smoking, to reduce drunk 
driving, problems to be sure, problems that kill Americans 
every day, but we have made it a national effort with 
government sponsorship to go after those issues, and we have 
done so without violating the Constitution. We certainly can do 
that much here.
    Mr. Dicks. I think this has been an outstanding hearing, 
and the committee will stand adjourned.
    We, again, thank the witnesses for a good job done.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]

                             For the Record

       Prepared Statement of the Honorable Bennie G. Thompson, a 
Representative in Congress from the State of Mississippi, and Chairman, 
                     Committee on Homeland Security

    <bullet> Than you, Madame Chair, for turning our attention today to 
the issues of radicalization and homegrown terrorism, and how a 
national commission addressing them could make this nation safer.
    <bullet> As the London train bombings in 2005 and the terror 
arrests of 12 Canadians in Toronto last summer made clear, the threat 
of homegrown terrorism is real.
    <bullet> Indeed, the recent arrests of U.S. citizens who were 
plotting attacks against the Fort Dix military base in New Jersey and 
JFK airport in New York remind us that the threat in this country is 
equally great.
    <bullet> Alsmot six years after 9/11, it is high time that we start 
to understand how radicalization can lead to terrorism and what we 
should do about it.
    <bullet> I commend Ms. Harman for her efforts in sponsoring the 
Homegrown Terrorism Prevention Act of 2007, and I believe that the 
creation of a national commission to study this problem and to 
recommend a legislative plan of action is the right step.
    <bullet> Such Commissions have had a major impact before.
    <bullet> The Gilmore Commission, for example, made 164 
recommendations regarding responses to terrorism involving weapons of 
mass destruction.
    <bullet> All of those 164 recommendations have been adopted--in 
whole or in part--by the Federal Government.
    <bullet> Moreover, the National Commission on Terrorism, on which 
Chairwoman Harman served in the late nineties, was a valuable resource 
for American counter-terrorism efforts both before and after the 911 
attacks.
    <bullet> And the work of the 9/11 Commission itself set in motion 
the creation of this Committee and the daily work we do to help secure 
the homeland.
    <bullet> I believe that the creation of a national commission on 
radicalization and homegrown terrorism will continue this tradition and 
help define our approach to these pressing problems.
    <bullet> Welcome again to you all. I look forward to your 
testimony.

                                 <all>

</pre></body></html>
